<html>
<title> - LAND IN ROCKY MOUNTAIN NATIONAL PARK; BENJAMIN FRANKLIN NATIONAL MEMORIAL; DESIGNATE THE STAR-SPANGLED BANNER TRAIL AS HISTORIC; EXTEND THE ACADIA NATIONAL PARK ADVISORY COMMISSION; KALAUPAPA NATIONAL HISTORICAL PARK ADVISORY COMMISSION; AND STUDY OF MARITIME SITES IN MICHIGAN</title>
<body><pre>[Senate Hearing 109-201]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-201

 
   LAND IN ROCKY MOUNTAIN NATIONAL PARK; BENJAMIN FRANKLIN NATIONAL 
MEMORIAL; DESIGNATE THE STAR-SPANGLED BANNER TRAIL AS HISTORIC; EXTEND 
   THE ACADIA NATIONAL PARK ADVISORY COMMISSION; KALAUPAPA NATIONAL 
  HISTORICAL PARK ADVISORY COMMISSION; AND STUDY OF MARITIME SITES IN 
                                MICHIGAN

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 584                                H.R. 432

                           S. 652                                S. 958

                           S. 1154                               S. 1166

                           S. 1346


                                     

                               __________

                             JULY 28, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-837                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    14
Belko, Dr. Steve, Manager, Michigan Lighthouse Project, Oxford, 
  MI.............................................................    30
Collins, Hon. Susan M., U.S. Senator from Maine..................     3
Dick, Mrs. Betty, Grand Lake, CO.................................    35
Eshelman, Dr. Ralph, Lusby, MD...................................    26
Martin, Stephen P., Deputy Director, National Park Service, 
  Department of the Interior.....................................     2
Salazar, Hon. Ken, U.S. Senator from Colorado....................    19
Santorum, Hon. Rick, U.S. Senator from Pennsylvania..............     2
Sarbanes, Hon. Paul S., U.S. Senator from Maryland...............    18
Stabenow, Hon. Deborah Ann, U.S. Senator from Michigan...........    15
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Udall, Hon. Mark, U.S. Representative from Colorado..............    20
Wint, Dr. Dennis M., President and CEO, the Franklin Institute, 
  Philadelphia, PA...............................................    32

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    47


   LAND IN ROCKY MOUNTAIN NATIONAL PARK; BENJAMIN FRANKLIN NATIONAL 
MEMORIAL; DESIGNATE THE STAR-SPANGLED BANNER TRAIL AS HISTORIC; EXTEND 
   THE ACADIA NATIONAL PARK ADVISORY COMMISSION; KALAUPAPA NATIONAL 
  HISTORICAL PARK ADVISORY COMMISSION; AND STUDY OF MARITIME SITES IN 
                                MICHIGAN

                              ----------                              


                        THURSDAY, JULY 28, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I believe we'll go ahead and start. 
Everything's a little unusually busy around here today, so 
folks may be a little late. But in any event, it's time for us 
to begin, so we'll do that.
    I want to welcome Deputy Director Steve Martin and our 
other witnesses to today's subcommittee hearing. Steve, 
congratulations on your assignment as Deputy Director, we're 
delighted to have you here. Your background in Wyoming, of 
course, is particularly helpful. Anyway, I look forward to 
working with you.
    The purpose for this hearing is to hear testimony on seven 
pending bills: S. 584 and H.R. 432, bills to require the 
Secretary of the Interior to allow continuing occupancy of 
certain land and improvements within Rocky Mountain National 
Park; S. 652, a bill to provide financial assistance for the 
rehabilitation of the Benjamin Franklin National Memorial in 
Philadelphia, and the development of an exhibit to commemorate 
the 300th anniversary; S. 958, a bill to amend the National 
Parks Trail System to designate the Star-Spangled Banner Trail 
in the States of Maryland and Virginia and the District of 
Columbia as a National Historic Trail; S. 1154, a bill to 
extend Acadia National Park Advisory Commission to provide 
improved visitor services at the park, and for other purposes; 
S. 1166, a bill to extend the authorization of the Kalaupapa 
National Historical Park Advisory Commission; and S. 1346, a 
bill to direct the Secretary of the Interior to conduct a study 
of maritime sites in the State of Michigan. So, we have several 
issues, and we're very pleased to have you all here.
    We will begin, then, with our first witness, Steve Martin, 
Deputy Director of the National Park Service. Steve, thanks for 
joining us.
    [The prepared statement of Senator Santorum follows:]

        Prepared Statement of Hon. Rick Santorum, U.S. Senator 
                           From Pennsylvania

    It is my pleasure to speak on behalf of S. 652 and introduce Dr. 
Dennis Wint, President and Chief Executive Officer of The Franklin 
Institute of Philadelphia, Pennsylvania. Prior to assuming the position 
of CEO in 1995, Dr. Wint earned a Ph.D. from Case Western Reserve 
University and served as president of the St. Louis Science Center. 
Under Dr. Wint's leadership, the Institute has been transformed and 
reinvented to emphasize the advances in science and technology.
    In appearing before the Subcommittee today, I pledge my full 
support for prompt passage of S. 652, which would authorize federal 
funding for the rehabilitation and enhancement of the Benjamin Franklin 
National Memorial. The Memorial is located on the premises of The 
Institute and, as Dr. Wint will explain, it is unique, because unlike 
other national memorials throughout the United States, it does not 
receive federal funding to support programs, operations, or 
preventative maintenance. In contrast to other national memorials that 
are owned and operated by the National Park Service, the Benjamin 
Franklin National Memorial remains in the custody of a private, non-
profit institution.
    I was pleased that with your support, the Senate passed identical 
legislation last year; however, our colleagues in the House did not act 
upon this bill prior to the 108th Congress' adjournment. With a 
national celebration occurring in 2006 to mark the 300th anniversary of 
the birth of Benjamin Franklin, Senator Specter and I reintroduced this 
bill because we believe it is our nation's obligation to honor the 
legacy of a distinguished scientist, statesman, inventor and diplomat 
by making certain that our national memorial to Benjamin Franklin 
remains intact and accessible to the public.
    The time has come to pass this legislation and provide federal 
support to help The Institute ease the burden of maintaining this 
national treasure so that generations of Americans may continue to 
enjoy this magnificent tribute to his legacy. As an indication of The 
Franklin Institute's commitment to this important project, I am pleased 
to report that Dr. Wint plans to commence a private fundraising 
campaign that will match The Institute's request for federal assistance 
as required by this legislation. Subsequently, prompt passage of this 
bill is expected to leverage the support of interested parties that 
will provide much needed funding for this project.
    Mr. Chairman, after consideration of today's testimony, I urge the 
Committee to favorably report this measure to help ensure its prompt 
enactment. Thank you and now it is my pleasure to introduce to you Dr. 
Dennis Wint, President and Chief Executive Officer of The Franklin 
Institute of Philadelphia, Pennsylvania.

       STATEMENT OF STEPHEN P. MARTIN, DEPUTY DIRECTOR, 
         NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Martin. Thank you, Senator Thomas, for having me here 
today. I would like to submit six statements on the different 
bills, but just summarize my remarks to start with and then 
answer any questions.
    Senator Thomas. Your statements will be part of the record.
    Mr. Martin. S. 584, the Betty Dick Residence Protection 
bill would require the Secretary of the Interior to permit 
continued occupancy and use of certain lands and improvements 
within Rocky Mountain National Park. The Department supports 
the general goal of the bill, which is to allow the National 
Park Service to resolve the issue of Mrs. Betty Dick's desire 
to continue to use her summer residence inside Rocky Mountain 
National Park, which she has used for more than 25 years. 
Currently, the National Park Service does not have clear 
statutory authority to address this unique situation. The 
Department would support this legislation, if amended, in a way 
that balances the merits of Mrs. Dick's situation with the 
public's interest in the property, which was purchased and is 
owned for the benefit of the American people. Our testimony 
recommends amendments that would open a portion of the property 
for public use, require fair market value rent for the 
property, and name Mrs. Dick as sole beneficiary of the bill. 
The pending legislation would only address Mrs. Dick's unique 
situation. The Department is also willing to work with the 
committee to develop a broader solution, one that would provide 
NPS with clear statutory authority to address expiring 
reservations of use and occupancy and other situations with 
similar merit. We regret the difficult situations that 
sometimes arise from expiration of private use and occupancy 
leases located within the National Parks, and we look forward 
to working with the committee on this issue.
    S. 652, the Ben Franklin National Memorial, would authorize 
up to $10 million in Federal funding for the rehabilitation of 
the Benjamin Franklin National Memorial in Philadelphia, and 
the development of an exhibit to commemorate the 300th 
anniversary of the birth of Benjamin Franklin. The Department 
does not support this bill.
    For many years, the Department has opposed legislation 
authorizing appropriations for non-National Park Service 
construction projects, because of its impact on the limited 
amounts of discretionary funds available to address the 
priority needs of our National Parks, and other programs that 
we administer.
    In addition, when Congress authorized the Ben Franklin 
National Memorial as an affiliated area in 1972, no provision 
was made for appropriated funds to be used for the Memorial. 
Congress anticipated that the Franklin Institute would continue 
to operate and maintain the Memorial at no cost to the 
government.
    We are committed, though, to supporting initiatives to 
commemorate the 300th anniversary of Benjamin Franklin and the 
interpretation of his legacy, especially at Franklin Court, a 
unit of Independence National Historical Park, but given the 
current demands on National Park Service funds, we cannot 
support this legislation.
    Senator Thomas. Mr. Martin, can I interrupt you for a 
moment?
    Mr. Martin. Yes.
    Senator Thomas. The Senator's here from Maine, and I think 
she has other commitments.
    Would you care to make your opening comments?

         STATEMENT OF HON. SUSAN COLLINS, U.S. SENATOR 
                           FROM MAINE

    Senator Collins. Thank you very much, Mr. Chairman, and 
thank you, Mr. Martin, for allowing me to interrupt your 
testimony before you got to my bill. I was on pins and needles 
on what you were going to say.
    Chairman Thomas, Senator Salazar, members of the 
subcommittee, I would like to thank you, first of all, for 
holding this hearing, and for considering a bill that I've 
introduced that is called the Acadia National Park Improvement 
Act of 2005. This legislation takes important steps to ensure 
the long-term health of one of America's most beloved National 
Parks. It would increase the land acquisition ceiling at Acadia 
by $10 million, facilitate an off-site intermodal 
transportation center for the Island Explorer bus system, and 
extend the Acadia National Park Advisory Commission. I would 
invite the members of this distinguished subcommittee to come 
to Acadia this summer, it is an absolutely beautiful place.
    In 1986, Congress enacted legislation designating the 
boundary of Acadia National Park. However, many private lands 
were contained within the permanent, authorized boundary. 
Congress authorized the park to spend $9.1 million to acquire 
those privately held lands from willing sellers only. While all 
of that money has now been spent, rising land prices have 
prevented the money from going as far as Congress originally 
intended. There are more than 100 private tracts left within 
the official park boundary. Nearly 20 of these tracts are 
currently available from willing sellers, but the park does not 
have funds anymore to purchase them. My legislation would 
authorize an additional $10 million to help acquire these 
lands.
    Since the lands already fall within the congressionally 
authorized boundary, I want to emphasize that this effort would 
just ``fill in the holes'' within the park, it would not 
enlarge the boundaries of the park.
    My legislation would also facilitate the development of an 
intermodal transportation center as part of the Island Explorer 
bus system. The Island Explorer has been extremely successful 
over its first 5 years. These low-emission, propane-powered 
vehicles have carried more than 1.5 million riders since 1999. 
In doing so, they removed 424,000 vehicles from the park, and 
reduced pollution by 24 tons.
    Unfortunately, the system lacks a central parking and bus 
boarding area, and as a result, many day-use visitors do not 
have ready access to the Island Explorer buses. My legislation 
would authorize the Secretary of the Interior to provide 
assistance in the planning, construction and operation of an 
intermodal transportation center. I would stress that this 
center would be constructed in partnership with the Federal 
Highway Administration, the U.S. Department of Transportation, 
the Maine Department of Transportation, and other partners. It 
would reduce traffic congestion, preserve park resources, and 
help to ensure a vibrant tourist economy.
    Finally, Mr. Chairman, my legislation would extend the 16-
member Acadia National Park Advisory Commission for an 
additional 20-year period. This commission was first created by 
Congress in 1986, and it's scheduled to expire in 2006. That 
would really be a mistake. The Commission consists of Federal, 
State, and community representatives who have provided 
invaluable advice relating to the management and development of 
the park. The commission has proven its worth many times over, 
and I would recommend that it be extended for an additional 20 
years.
    Mr. Chairman, Acadia National Park is a true gem on the 
Maine coastline. The park is one of Maine's most popular 
tourist destinations, with nearly three million visitors a 
year. While unsurpassed in beauty, the park's ecosystem is also 
very fragile. Unless we are careful, we risk substantial harm 
to the very place that Mainers and Americans hold so dear.
    In just 11 years, Acadia will be 100 years old. Age has 
brought both increase in popularity, and greater pressures. By 
providing an additional $10 million to protect sensitive lands 
within the boundary of the park, by expanding the highly 
successful Island Explorer System, and by extending the 
advisory commission, our legislation would help make the park 
stronger, and healthier than ever on the occasion of its 
centennial anniversary.
    Again, my appreciation to you for holding this hearing. I 
know how dedicated the members of this subcommittee are to 
preserving and strengthening our National Park System. I hope 
you will give favorable consideration to this bill. Thank you 
very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator, it's always nice to 
have Mainers here. I've never heard that word before.
    Senator Collins. Thank you.
    Senator Thomas. Thank you, Mr. Director, you can go right 
on with your testimony.
    Mr. Martin. The Star-Spangled Banner Trail, S. 958, would 
amend the National Trails System Act to designate the Star-
Spangled Banner Trail as a National Historic Trail. The 
Department supports this bill, which would designate an 
approximately 290-mile land and water trail, extending from 
southern Maryland through the District of Columbia, and 
Virginia, along the Chesapeake Bay.
    The proposed National Historic Trail would commemorate the 
events leading up to the writing of the Star-Spangled Banner, 
during the Chesapeake Campaign of the War of 1812. The proposed 
trail represents an opportunity for an effective partnership 
among Federal, State and local governments, a dedicated trail 
organization, and the many public and private site managers to 
administer and maintain a federally designated, commemorative 
trail, along the historic routes of the Chesapeake Campaign.
    Because of its emphasis on partnerships, this approach 
provides the greatest flexibility for resource protection, 
while creating a framework for interpretation, and visitor 
experience.
    Acadia National Park, S. 1154, which was just very well-
spoken to, would extend the Acadia National Park Advisory 
Commission for an additional 20 years, increase the park's land 
acquisition ceiling to $28 million, and authorize the park to 
participate in the planning, construction, and operation of an 
intermodal transportation center outside of the park's 
boundary.
    The Department supports enactment of this bill, with two 
technical amendments, which are attached to our statement. The 
Acadia Advisory Commission continues to be a valuable asset 
that enhances communication between park managers and local 
communities. Its continuation is strongly supported by its 
State and local representatives. The land acquisition ceiling 
is needed because of the increased number of willing landowners 
who wish to sell their property, and acquiring these properties 
is effective at this time for the National Park Service. 
Raising the ceiling to $28 million would allow the park to 
acquire all of the parcels within the boundary that are 
currently available for sale.
    The intermodal transportation center is the final piece of 
a three-phase transportation strategy that was developed with 
the assistance of an interagency team of transportation and 
park managers, and partners who have combined their resources 
to offer the Island Explorer, a bus system that uses clean, 
propane-powered vehicles. More than 1.5 million riders have 
used the popular system since 1999. Traffic congestion on Mount 
Desert Island has been reduced, and the park's air quality has 
improved. The new project calls for developing an off-island 
transportation center, which would include a visitor 
orientation facility to serve day users of Acadia National 
Park.
    Kalaupapa Advisory Commission, S. 1166, would extend the 
authorization of the Kalaupapa National Park Advisory 
Commission for another 20 years. The Department supports this 
legislation, with amendments described in our statement. 
Extending the duration of the Kalaupapa Advisory Commission for 
another 20 years would enable a panel of knowledgeable and 
dedicated individuals to provide guidance during the coming 
years when the park will be anticipating the change from a 
patient community to a more traditional park unit.
    Kalaupapa National Historical Park was established to 
preserve and interpret the settlement on Kalaupapa Peninsula on 
the island of Molokai, and to provide a well-maintained 
residential community for the patients with Hansen's Disease, 
or leprosy. The enabling legislation gave primary consideration 
to the rights and needs of the resident patients, so long as 
they remain there. However, the legislation also anticipated 
the day when there would no longer be a resident patient 
community at Kalaupapa. An advisory commission, in operation 
until 2025 would offer important guidance for the National Park 
Service as it seeks to provide for the settlement's last 
remaining patients, and transition to a park that is more 
broadly available for the public.
    Maritime sites in Michigan, S. 1346, would authorize a 
special resource study of the maritime heritage sites in the 
State of Michigan. The Department does not support this bill. 
While Michigan is rich in historic treasures linked to its 
Great Lakes heritage, and the coastline of the state are home 
to important resources, such as wetlands, dunes, and threatened 
and endangered species and plants. We believe the best of these 
cultural and natural resources are already being conserved and 
interpreted for the enjoyment of the public. All four National 
Park Service units in Michigan--Pictured Rocks National 
Lakeshore, Keweenaw National Historical Park, Isle Royale 
National Park and Sleeping Bear Dunes National Lakeshore--
already preserve and interpret historic maritime resources 
identified in the provisions of S. 1346.
    The State of Michigan also has made great efforts to 
protect important cultural and natural resources. Michigan has 
listed over 1,000 sites on the National Register of Historic 
Places, which include many ships and shipwreck sites. The State 
has developed a data base that includes the stories of the 
1,500 shipwrecks, as well as information on 11 underwater 
preserves.
    We would continue to work together with the communities, 
the State and others to preserve, interpret and use these 
areas.
    Mr. Chairman, this concludes my testimony. I'd be pleased 
to answer any questions that you might have.
    [The prepared statement of Mr. Martin follows:]

Prepared Statement of Stephen P. Martin, Deputy Director, National Park 
                Service, U.S. Department of the Interior

                         ON S. 584 AND H.R. 432

    Mr. Chairman and members of the Subcommittee thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 584 and H.R. 432, bills that would require the 
Secretary of the Interior to permit continued occupancy and use of 
certain lands and improvements within Rocky Mountain National Park.
    The Department supports the general goal of S. 584 and H.R. 432 to 
allow the National Park Service (NPS) to resolve the merits of Mrs. 
Betty Dick's desire to continue to live in the home inside Rocky 
Mountain National Park where she has lived for more than 25 years. 
Currently, the NPS does not have clear statutory authority to address 
these unique situations. In this testimony, we recommend certain 
amendments that will address both Mrs. Dick's needs while recognizing 
the public's purchase and ownership of this property.
    As drafted, the pending legislation will only address Mrs. Dick's 
unique situation. The Department also would be willing to work with the 
Committee to develop a broader solution, one that would provide NPS 
with clear statutory authority to address expiring reservations of use 
and occupancy in other situations with similar merit. We look forward 
to working with the Committee on this issue.
    On April 14, 2005, the Department testified in opposition to H.R. 
432 at a hearing before the House Subcommittee on National Parks. 
However, since that time, the Department has recognized the need for a 
broader solution in light of the several hundred reservations of use 
and occupancy that will expire over the next 10 years. Some of these 
existing reservations may present circumstances similar in merit to 
Mrs. Dick's.
    S. 584 and H.R. 432 would allow the continued use and occupancy of 
land within Rocky Mountain National Park by Betty Dick for the 
remainder of her life. The bills also state that the use and occupancy 
of the land would be governed by the conditions stated in the 1980 
settlement agreement. Under these conditions, Betty Dick would be 
required to make an annual payment of $300 to the Secretary of the 
Interior and she would be prohibited from constructing any new 
structures on the property.
    We regret the difficult situations that sometimes arise from the 
expiration of private use and occupancy leases located within National 
Parks. Mrs. Dick has been a model tenant in Rocky Mountain National 
Park. The park has always enjoyed, and continues to enjoy, a congenial 
relationship with her, and she is a familiar summer resident of the 
Grand Lake community opening her home to park staff and residents of 
the community alike. Park staff always feel welcome in Mrs. Dick's home 
and have frequently stopped by to discuss this issue and other items of 
mutual interest relating to the park.
    The situation that is the subject of these bills is the result of a 
commitment made by Mr. Dick, Mrs. Dick's late husband, to vacate the 
property that he sold to the NPS 25 years ago. We understand and 
appreciate that this commitment has caused anxiety and stress for Mrs. 
Dick.
    In 1977, the NPS purchased 66.5 acres from Marilyn Dick, the ex-
wife of George Fredrick Dick for $214,000. The title company that 
handled the transaction overlooked the fact that Mr. Dick had retained 
a right of first refusal to purchase the property if his ex-wife ever 
decided to sell. Mr. Dick sued the NPS and his former wife in U.S. 
District Court. In a legally binding Memorandum of Settlement 
Agreement, signed by the parties in 1980, the NPS retained ownership of 
the property and agreed to lease approximately 23 acres to Mr. Dick and 
his heirs for a period of 25 years for $7,500, which equates to $300 
per year. Mr. Dick died in 1992. His second wife, Betty Dick, survives 
him and now occupies the premises during the summer months. As the heir 
of Mr. Dick, Betty Dick had a leasehold interest in the property that 
expired July 16, 2005.
    Mrs. Dick has contacted the NPS about extending her use and 
occupancy on a preferential basis for the remainder of her life. The 
NPS lacks the authority to grant such an extension either through 
existing leasing authority or special use permit authority. NPS does 
have the authority to issue leases competitively in most circumstances; 
issuing leases noncompetitively is limited to leases to units of 
government or non-profit organizations under certain circumstances. NPS 
is also is required to charge rent at least equal to fair market value, 
and the rent payment is kept by the park.
    NPS cannot issue special use permits to extend use and occupancy 
for a life term under current authorities. However, NPS does have 
authority under certain circumstances to issue a two-year special use 
permit, with the possibility of re-issuance as long as the justifying 
circumstances apply, that would allow an individual with an expired use 
and occupancy to remain on the premises. Some of the criteria include 
situations in which NPS would be unable to remove the structure for a 
significant period of time (e.g., because of the need to complete 
planning requirement or the lack of available funds); the structure has 
or may have historical significance that would be endangered if 
vacated; or termination of residency would create undue hardship to the 
occupant (this provision requires the structure to be the primary 
residence of the individual). Special use permits also may only be 
issued for rent equal to the fair market value rent for the property, 
and the rent would be deposited in the U.S. Treasury. Under our current 
authority, we have offered Mrs. Dick such a special use permit that 
allows her to remain on her property for a period of time while NPS 
conducts a planning process to consider the options and determine an 
appropriate use for the property taking into account the interests of 
American taxpayers and park visitors, and park resources.
    Mrs. Dick has verbally indicated that she will not accept the offer 
of a special use permit because it does not address her request for a 
life estate. A written offer has been sent to her that asks for her 
reconsideration of the NPS offer. While she has not yet responded to 
the request for reconsideration, she has accepted our offer to remain 
at her summer home for the remainder of this season as we await the 
outcome of the pending legislation. In accepting this offer, Mrs. Dick 
has stated her appreciation to park staff for allowing her to continue 
her normal routine for this summer.
    The Department would support S. 584 and H.R. 432, if amended in a 
way that balances the merits of Mrs. Dick's situation with the public's 
interest in this property, which was purchased and is owned for the 
benefit of the American people. First, the Department would recommend 
that the bills be amended to reduce the acreage she occupies from 23 
acres to approximately three to five acres that contain the house and 
outbuildings and her access to the Colorado River. The balance of the 
property would then be available for park visitors, including access to 
the river. This would require producing a new map, which we would be 
happy to provide to Mrs. Dick and to the public.
    In addition, we suggest that Mrs. Dick's continued occupancy of the 
property should be subject to fair market value rent, based upon an 
appraisal of the property, with the rent being retained by the park.
    Finally, we suggest that the bill be amended to name Mrs. Dick as 
the sole beneficiary of the legislation, and that language be added to 
allow the termination of the lease in the event that Mrs. Dick is no 
longer able to use the property in the summer or is unable or unwilling 
to pay the annual fees. We would be happy to work with the Subcommittee 
staff to develop these amendments.
    Throughout the country, there are many instances where the NPS has 
purchased private inholdings and permitted former landowners to remain 
on the property for a period of time, usually 25 years, through a 
``Reservation of Use and Occupancy.'' The United States pays a reduced 
purchase price to account for the value of the retained use. This 
acquisition tool saves taxpayer dollars and allows the former owner to 
continue to enjoy the property for a set period of time. As we noted 
earlier, the Department also would like to work with the Committee to 
develop a broader solution--one that would provide the NPS with clear 
statutory authority to address the expiring reservations of use and 
occupancy in situations where there is merit. We look forward to 
working with the Committee on this effort.
    That concludes my remarks. Mr. Chairman, I would be happy to answer 
any questions you or other members of the Subcommittee may have.

                               ON S. 652

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
652, a bill to provide financial assistance for the rehabilitation of 
the Benjamin Franklin National Memorial in Philadelphia, Pennsylvania, 
and the development of an exhibit to commemorate the 300th anniversary 
of the birth of Benjamin Franklin. The Department does not support this 
bill.
    This bill would authorize financial assistance in the form of a 
grant to the Franklin Institute to rehabilitate the Benjamin Franklin 
National Memorial, and to develop an interpretive exhibit relating to 
Benjamin Franklin to be displayed at a museum adjacent to the memorial. 
An amount not to exceed $10,000,000 would be authorized to be 
appropriated for these purposes, with the Franklin Institute required 
to provide matching funds.
    For many years, the Department has opposed legislation authorizing 
appropriations for non-National Park Service construction projects. 
Many of these projects, like the rehabilitation of the Ben Franklin 
National Memorial, represent an important contribution to the 
preservation of our Nation's history. However, each time such 
legislation is enacted and appropriations follow, it further reduces a 
limited amount of discretionary funds available to address the priority 
needs of our national parks and other programs administered by the 
National Park Service. With the emphasis we have placed on the 
President's initiative to reduce the deferred maintenance backlog, it 
has become more important than ever to avoid authorizing funding for 
non-National Park Service projects that would likely draw funds from 
the National Park Service's budget. We are committed to supporting 
initiatives to commemorate the 300th anniversary of Benjamin Franklin 
and the interpretation of his legacy, especially at Franklin Court, a 
unit of Independence National Historical Park in Philadelphia, but 
given the current demands on National Park Service funds, we cannot 
support this legislation.
    The Benjamin Franklin National Memorial is an affiliated area of 
the National Park System that is owned and administered by the Franklin 
Institute. The Memorial includes a colossal seated marble statue of 
Franklin carved by sculptor James Earle Fraser, which stands in the 
Rotunda of the Franklin Institute's main building at 20th Street and 
the Benjamin Franklin Parkway in Philadelphia. The statue and 
surrounding Memorial Hall was designated as the Benjamin Franklin 
National Memorial on October 25, 1972 (P.L. 92-551) and made no 
provision for appropriated funds to be used for acquisition, 
development, operation or maintenance of this Memorial. The House 
committee report on P.L. 92-551 anticipated that the Franklin Institute 
would continue to operate and maintain the Memorial at no cost to the 
government.
    A Memorandum of Agreement (MOA) entered into on November 6, 1973, 
falls under the administrative authority of Independence National 
Historical Park. The MOA outlines the major responsibilities of each 
party regarding the operations of the national memorial. The Franklin 
Institute agreed to preserve the memorial in perpetuity, that no 
substantial alterations or repairs be taken without Secretarial 
approval, that the public shall be admitted without charge to the 
memorial, and that there will be equal employment opportunities. In 
turn, the Secretary agreed to include the memorial in publications, to 
make appropriate references to it in the interpretive and information 
programs of Independence National Historical Park, and to cooperate 
with the Institute in all appropriate and mutually agreeable ways on 
behalf of the memorial.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks, and I will be happy to answer any 
questions you or other committee members might have.

                               ON S. 958

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 958, a bill to amend the National Trails System 
Act to designate the Star-Spangled Banner Trail as a National Historic 
Trail.
    The Department supports S. 958, which would designate an 
approximately 290-mile land and water trail extending from southern 
Maryland through the District of Columbia and Virginia along the 
Chesapeake Bay. The land routes would follow existing public roads, 
along which British and American troops traveled. The bill would 
require the Secretary to encourage public participation and consult 
with landowners, Federal, State, and local agencies on the 
administration of the trail. The bill would prohibit land or interest 
in land outside the exterior boundaries of any federally administered 
area from being acquired for the trail without the consent of the 
owner.
    The proposed National Historic Trail would commemorate the events 
leading up to the writing of ``The Star-Spangled Banner'' during the 
Chesapeake Campaign of the War of 1812. These events include the 
British invasion of Maryland, the Battle of Bladensburg, the burning of 
the White House and the Capitol, the burning of the Washington Navy 
Yard, and the Battle for Baltimore in the summer of 1814. The route of 
the invasion is known and documented, and the proposed trail would 
follow it as closely as practical.
    The War of 1812 and the Chesapeake Campaign of 1814 had long-
lasting and far-reaching effects on the United States and American 
culture. It represented the first major test of our infant democracy, 
contributed to the formation of a national identity, and demonstrated 
the importance of a strong military and the need for coastal defenses. 
During the campaign, other events occurred that are significant to our 
nation's heritage, particularly the writing of the poem commemorating a 
key battle--the Battle for Baltimore. Francis Scott Key's poem, the 
words of which comprise our National Anthem, celebrated the resiliency 
of the young nation and the flag he described as ``The Star-Spangled 
Banner'' during the successful defense of Fort McHenry. The events 
provide important testimony, too, about the roles of the enslaved and 
civilians in the early defense of the nation.
    Should S. 958 be enacted, the National Park Service, subject to 
availability of funds, would prepare a comprehensive management plan 
with widespread public participation to identify the goals and 
objectives for trail preservation, research, interpretation, public 
use, trail marking, and cooperative management. The bill recognizes the 
advantages offered by the regional nature of the trail and the many 
organizations interested in and associated with the history of the 
Chesapeake Campaign. Several key trail-related resources, such as Fort 
McHenry and the White House, are owned by the Federal government. We 
anticipate that other trail-related resources such as structures within 
Old Town Alexandria in Virginia or Jefferson Patterson Park and Museum 
in Maryland will primarily remain in local or private ownership.
    In 1999, the Star-Spangled Banner National Historic Trail Study Act 
(Public Law 106-135) was enacted authorizing the Secretary of the 
Interior to study the potential route of a Star-Spangled Banner 
National Historic Trail. The history, background, integrity, and 
national significance of the trail were researched and analyzed. The 
criteria for national trails, set forth in the National Trails Systems 
Act, were applied, and five of the eight trail study segments were 
found to meet the necessary criteria. The proposed 290-mile trail would 
only include these five segments.
    Providing conservation and enjoyment of, public access to, and 
interpretation of the historic route and its resources has been a 
growing focus of both public and private initiatives in recent years as 
the Bicentennial of the War of 1812 approaches. In Maryland, a 
grassroots initiative was undertaken to raise public awareness of the 
important events that occurred in the Chesapeake region in the summer 
of 1814 during the War of 1812. Historians and regional groups 
recognized the untold stories and legacy of the events of the 
Chesapeake Campaign and the need for protection and interpretation of 
related historical resources.
    The proposed trail represents an opportunity for an effective 
partnership among Federal, State, and local governments, a dedicated 
trail organization, and the many public and private site managers to 
administer and maintain a federally designated commemorative trail 
along the historic routes of the Chesapeake Campaign. Because of its 
emphasis on partnerships, this approach provides the greatest 
flexibility for resource protection while creating a framework for 
interpretation and visitor experience.
    Mr. Chairman, that concludes my remarks and I would be happy to 
respond to any questions that you and the committee may have.

                               ON S. 1154

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1154, a bill to extend the Acadia National Park Advisory Commission, to 
provide improved visitor services at the park, and for other purposes. 
The Department supports enactment of this bill with two technical 
amendments.
    If enacted, S. 1154 would accomplish three objectives. First, it 
would extend the life of the 16-member Acadia National Park Advisory 
Commission, which is set to expire in September 2006, for an additional 
20 years. Second, the bill would increase the park's land acquisition 
ceiling from $9.1 million to $28 million. Third, it would authorize 
Acadia National Park to participate in the planning, construction, and 
operation of an intermodal transportation center outside the park's 
boundaries.

Acadia National Park Advisory Commission
    The Acadia National Park Advisory Commission has been in operation 
for almost 20 years, and continues to be a valuable asset that enhances 
communication between park managers and local communities. The 
Commission's state and local representatives participate actively, and 
they strongly support its continuation. The cost of administering the 
Commission is minimal and is covered by the park's operating budget.

Increase in Land Acquisition Ceiling
    Acadia National Park's authorized land acquisition ceiling of $9.1 
million has been reached, although there are over 100 tracts left to be 
acquired to complete the park as authorized by Congress in 1986. Land 
prices on Mount Desert Island, where Acadia National Park is located, 
have increased dramatically since 1986 and may continue to do so if 
local home-inflation trends continue. Many willing landowners are 
anxious to sell, but the park cannot buy the land because the land 
acquisition ceiling does not permit the use of sufficient appropriated 
funds, thus leaving valuable resources within the park threatened with 
incompatible development.
    The current law allowing Congress to exceed the ceiling by 10% or 
$1 million per year has resulted in an additional $8.9 million 
appropriated over the ceiling, for a total appropriation of $18 million 
for land acquisition at Acadia National Park to date. However, because 
the current law is limited to $1 million per year, it does not 
adequately address situations where available tracts are valued higher 
than $1 million. If these undeveloped tracts within the boundaries of 
the park are developed with new structures, acquisition costs will 
increase. Acquiring these lands sooner rather than later is more cost-
effective for the National Park Service in the long run. In addition, 
the park currently faces encroachment issues, where private landowners 
use adjacent park lands for swing sets, hot tubs, sheds and the like. 
The proposed $28 million ceiling would allow the National Park Service 
to acquire all parcels of land that are located within the boundary of 
the park that are currently available for sale.
    Incompatible development within park boundaries can degrade the 
natural and cultural values that are important to the visitors of 
Acadia National Park. There are also ``spillover'' impacts from use of 
private lands that are surrounded by park land including noise and 
light impacts, which tend to drive the public away from these parts of 
the park. Finally, larger blocks of land are more cost-effective to 
manage than smaller discontinuous parcels that are owned by multiple 
owners and thus, result in higher boundary monitoring and patrol costs.

Intermodal Transportation Center
    The intermodal transportation center is the final piece of a three-
phase transportation strategy that was developed with the assistance of 
an interagency team of transportation and park managers. The 
interagency team was established pursuant to the 1997 Memorandum of 
Understanding between the Secretary of Transportation and the Secretary 
of the Interior to comprehensively address public transportation in and 
around our national parks. Language within S. 1154 authorizing Acadia 
National Park to participate in the planning, construction and 
operation of an intermodal transportation center outside park 
boundaries is essential for completion of a highly successful 
transportation system that operates through a consortium of twenty 
partners. These partners include the U.S. Department of Transportation, 
the Maine Department of Transportation, and many local interests who 
developed this transportation strategy and have combined their 
resources to offer the Island Explorer, a bus system that uses clean 
propane-powered vehicles to move visitors around the Island. The 
operational costs are paid for by a special transportation fee imposed 
at Acadia, state and local funds, and business contributions.
    Daily summer use of the Island Explorer has averaged 3,700 riders 
and more than 1.5 million riders have used the popular system since it 
began in 1999. Traffic congestion on Mount Desert Island and the 
negative impacts of too many vehicles in Acadia National Park have been 
reduced, and the park's air quality has improved annually.
    Currently, overnight visitors are picked up at their lodgings by 
the Island Explorer, but the increasing numbers of day use visitors do 
not have access to the transit system because it lacks a central 
parking and bus boarding area. As planned, the project calls for 
developing an off-island intermodal transportation center to serve day 
users of Mount Desert Island and Acadia National Park. The center is 
needed to maximize the benefits of the transit system and to fully 
achieve the project's goals of reducing traffic congestion, preserving 
park resources and the visitor experience, and ensuring a vibrant 
tourist economy.
    The proposed center would be strategically located on Route 3 (the 
only road to Mount Desert Island and Acadia National Park) in Trenton, 
Maine. A non-profit partner will acquire the land using donated funds. 
The Maine Department of Transportation and the Federal Transit 
Administration will have the lead in the planning and construction of 
the center, which will include parking for day users, a visitor 
orientation facility highlighting park and regional points of interest, 
a bus boarding area, and a bus maintenance garage.
    Most of the proposed facility would be built with funds provided by 
the U.S. Department of Transportation to the State of Maine. The 
National Park Service would be responsible for the design, 
construction, and operation of all or part of the visitor orientation 
portion of the center, which would include exhibits, media 
presentations, and general information for park visitors bound for 
Acadia National Park. The National Park Service might also contribute 
to maintenance and operation of the facility. The proposed center would 
replace the park's inadequate Thompson Island Information Center, which 
is too small to accommodate the large number of summer visitors to the 
park, contains out-of-date exhibits, and is not optimally located to 
intercept visitors.
    We would recommend two technical amendments be made to section 4 of 
the bill. First, we need to clarify that the Secretary would be 
authorized to conduct activities that facilitate the dissemination of 
information relating to the Island Explorer or any successor to the 
Island Explorer in case the transit system is renamed. Second, in order 
to preserve flexibility in how resources are allocated, we would 
recommend that the word ``may'' be used instead of ``shall''.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
Technical amendments to S. 1154, the Acadia National Park Improvement 
        Act of 2005
    On p. 2, line 9, strike ``shall'' and insert ``may''.
    On p. 2, line 26, strike ``system;'' and insert ``system or any 
successor transit system;''.

                               ON S. 1166

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1166, a bill to extend the 
authorization of the Kalaupapa National Historical Park Advisory 
Commission. The advisory commission is due to expire on December 22, 
2005; this bill would extend the commission another twenty years, until 
December 22, 2025.
    The Department supports this legislation with amendments described 
later in this statement. Extending the duration of the Kalaupapa 
National Historical Park Advisory Commission for another 20 years would 
enable a panel of knowledgeable and dedicated individuals to provide 
guidance during the coming years when the park will be anticipating the 
change from a patient community to a more traditional national park 
unit.
    Kalaupapa National Historical Park was established in 1980 by 
Public Law 96-565 to preserve and interpret the settlement on the 
Kalaupapa Peninsula on the island of Molokai, and to provide a well-
maintained residential community for the patients with Hansen's disease 
(leprosy). The enabling legislation gave primary consideration to the 
rights and needs of the resident patients so long as they remained 
there. However, the legislation also anticipated the day when there 
would no longer be a resident patient community at Kalaupapa by 
providing for a reevaluation of the policies governing the management, 
administration, and public use of the park once that occurs.
    With a patient population of fewer than 40, it is likely that 
sometime before 2025, there will no longer be a resident patient 
community at Kalaupapa. At that time, the reevaluation of policies 
governing the park will be undertaken, as required by the law 
establishing the park. An advisory commission in operation until 2025 
could offer important guidance to the National Park Service, as it 
seeks to provide for the settlement's last remaining patients and 
transition the park from a site that is primarily a patient community 
to one that is more broadly available for public uses.
    While we believe it is critically important to have the involvement 
of the patient community on the advisory board for as long as possible, 
we believe that an extension of the advisory commission for 20 years, 
by necessity, needs to be accompanied by a change in the allowable 
composition of the commission. Section 108(a) of P.L. 96-565 provides 
for the Secretary of the Interior to appoint seven members to the 11-
member advisory commission who are present or former patients, elected 
by the patient community. We recommend amending this section to provide 
for the Secretary to appoint seven members who are knowledgeable about 
Kalaupapa's history and have a strong interest in the preservation of 
the settlement's history, if patients are unable to serve on the 
commission. We support retaining the requirement currently in law that 
the other four members be appointed from recommendations submitted by 
the Governor of Hawaii.
    For similar reasons, we also recommend amending Section 108(d) of 
P.L. 96-565. This section requires the Secretary to consult with the 
commission on a training program for the patients, among other matters, 
and provides for public visitation levels to be determined by the 
commission on the basis of a patient referendum. For the next phase of 
decision-making, we believe it would be more appropriate to amend 
Section 108(d) to specify that the commission should recommend to the 
Secretary the long-term strategic planning, education, and outreach 
efforts that should be undertaken by the National Park Service for the 
park and should advise the Secretary about appropriate visitation 
levels for the park.
    We would be pleased to work with the subcommittee on language for 
amendments to Sections 108(a) and 108(d).
    In the 25 years since Congress passed the enabling legislation for 
Kalaupapa National Historical Park, the National Park Service has built 
a strong relationship with many of the residents and the State of 
Hawaii. We have learned a lot--about Hansen's disease, inequality, 
renewal and hope--through our relationship with these individuals and 
their families. We want those who have helped us understand the history 
of what happened at Kalaupapa to be involved in framing the story for 
the future. Providing for the advisory commission for the park to 
remain in existence for another 20 years will help ensure that this 
goal is achieved.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer questions you or the other members of the subcommittee may have.

                               ON S. 1346

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1346, a bill to authorize the 
Secretary of the Interior to conduct a special resource study of the 
maritime heritage sites in the state of Michigan.
    The Department does not support S. 1346. While Michigan is rich in 
historic treasures linked to its Great Lakes' heritage and the 
coastlines of the state are home to important resources such as 
wetlands, dunes, and threatened and endangered species and plants, we 
believe the best of these cultural and natural resources are already 
being conserved and interpreted for the enjoyment of the public.
    S. 1346 would authorize a study to determine the potential economic 
and tourism benefits of preserving, protecting, and interpreting the 
State's maritime resources. It would recommend management alternatives 
for the most effective long-term protection and interpretation of the 
resources. The study also would address ways to link communities, 
waterways, monuments, parkways, national and state parks, and state 
historic sites on the national, regional, state and local levels into a 
Michigan Maritime Heritage Destination Network. S. 1346 would require a 
report to be submitted to Congress not later than 18 months after funds 
are made available that describes the results of the study. The bill 
would authorize funding of $500,000 for the study.
    All four National Park Service (NPS) units in Michigan, Pictured 
Rocks National Lakeshore, Keweenaw National Historical Park, Isle 
Royale National Park, and Sleeping Bear Dunes National Lakeshore 
already preserve and interpret historic maritime resources identified 
in the provisions of S. 1346. These parks contain historic maritime 
landscapes of a size and quality unique on the Great Lakes and rare 
elsewhere on the United States coastlines. The maritime heritage 
resources at all four NPS sites are interpreted and presented to the 
public in a variety of ways. Symbols of the maritime history of Lake 
Superior are preserved at Pictured Rocks National Lakeshore at three 
former Coast Guard stations and the Au Sable Light Station, which is 
perhaps the finest example on the Great Lakes of late 1800's vintage 
masonry lighthouses. At Keweenaw National Historical Park, the majority 
of cultural resources are related to copper mining. Some of the success 
of that industry was attributed to the waterways of Lake Superior and 
the role that copper played in building ships and boats to this day. 
Thus, this site adds another dimension to the maritime heritage of the 
area.
    Copper mining on the island of Isle Royale and the growth of Lake 
Superior shipping led to the establishment of four lighthouses around 
Isle Royale National Park. These lighthouses, three of which are listed 
on the National Register of Historic Places, and numerous shipwrecks of 
both national and state significance scattered throughout Isle Royale 
National Park give clear indication of the traffic and danger the 
waters of Lake Superior posed to sailing vessels throughout history. 
The area was a base for a thriving commercial fishing industry from the 
1830's until the park's establishment in 1931.
    The maritime resources at Sleeping Bear Dunes National Lakeshore 
include an 1858 lighthouse, three original Life-Saving Service /Coast 
Guard stations, eight historic rescue boats, and hundreds of museum 
artifacts. Cultural landscapes highlight the maritime and agricultural 
resources of the area. The waters of Lake Michigan have played a key 
role in the settlement of the state.
    There are indoor and outside exhibits, walking tours, living 
history, boat tours and audio-visual programs at these park sites. 
Scores of school groups make trips to these sites where history comes 
alive to enhance their social science studies. During the summers, 
national park rangers, Volunteers-in Park (VIPs), and various park 
partners staff museums, visitor centers, and historic structures to 
provide the general public with enthusiasm and knowledge of the 
maritime heritage resources.
    The state of Michigan also has made great efforts to preserve and 
protect important cultural and natural resources. Michigan has listed 
over one thousand sites on the National Register of Historic Places, 
which includes state parks, historic houses, commercial and residential 
areas, farm and factory complexes, cemeteries, monuments, as well as 
ships and shipwreck sites. The state has developed a database that 
includes the stories and details of wrecks and rescues of 1,500 
shipwrecks as well as information on the 11 underwater preserves and 
other important historical facts. There are 120 lighthouses along the 
coastline, the oldest ones being over 180 years old. And Michigan 
established the first fresh water marine sanctuary in the Great Lakes 
area, the Thunder Bay National Marine Sanctuary and Underwater 
Preserve, to maintain stewardship over and interpret a large collection 
of shipwrecks. There are numerous museums, hotels, historic ships and 
boats, locks and ports, and underwater preserves related to the 
maritime industry.
    The Great Lakes are a critical part of Michigan's economy and 
quality of life. Millions of people use the Great Lakes each year to 
enjoy beaches, good fishing and boating. Pictured Rocks National 
Lakeshore, Keweenaw National Historical Park, Isle Royale National 
Park, and Sleeping Bear Dunes National Lakeshore will continue to 
ensure that outstanding natural and cultural resources will be 
protected for generations to come.
    Mr. Chairman, this concludes my prepared testimony. I would be 
pleased to answer any questions you or the committee may have.

    Senator Thomas. All right. Thank you very much, Mr. Martin.
    We've been joined by the Senator from Hawaii. Would you 
have any opening statements?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, very much, Mr. Chairman. I thank 
you very much for holding this hearing. I have a statement that 
I ask to be included in the record. I'd like to say that I've 
heard a lot of your statement, Mr. Martin, and I'm glad to know 
how you feel about Kalaupapa National Park and I'd like to say 
more about that later. Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Akaka follows:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Mr. Chairman, thank you for scheduling this hearing. I would like 
to make a brief statement in support of S. 1166, a bill Senator Inouye 
and I introduced to extend the authorization of the advisory commission 
at Kalaupapa National Historical Park. Like the other bills on today's 
agenda, this is not a major national issue, but it is very important to 
my State.
    Kalaupapa National Historical Park was established by statute in 
1980 to provide for the preservation of the nationally and 
internationally significant resources of the Kalaupapa settlement on 
the island of Molokai--including its residents, culture, history, and 
natural resources.
    The purpose of the park is to provide a well-maintained community 
in which the patients with Hansen's disease may remain at Kalaupapa as 
long as they wish, while protecting their current lifestyle and their 
individual privacy. The park also protects the spectacular features of 
the Kalaupapa peninsula and the important history of the site.
    The park's enabling legislation also established the Kalaupapa 
National Historical Park Advisory Commission consisting of 11 members, 
appointed by the Secretary of the Interior. Seven of the members are 
patients or former patients elected by the patient community. Four 
members are appointed from recommendations made by the Governor of 
Hawaii, and at least one of these is Native Hawaiian.
    The Advisory Commission has provided very useful input and advice 
to the Secretary of the Interior on policy concerning visitation to the 
park and other matters. It is remarkable that 25 years have passed 
since enactment of the bill establishing the park and Commission, and 
at the end of the 2005 calendar year, the Advisory Commission expires. 
It is important to continue the work of the Commission, which is to 
provide a voice for the patients and residents on matters concerning 
their home. S. 1166 simply extends the authorization for an additional 
20 years.
    I have received a letter from some of the residents at Kalaupapa in 
support of S. 1166, and I ask that it be included in the hearing 
record.*
---------------------------------------------------------------------------
    * The letter is included in the appendix.
---------------------------------------------------------------------------
    Mr. Chairman, I look forward to working with you and the sponsors 
of the bills on today's agenda to help move them through the Committee 
process as soon as practicable.
    Thank you.

    Senator Thomas. Thank you very much.
    Now we're joined by the Senator from Michigan. If you'd 
like to go ahead before we ask questions.

        STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Stabenow. Thank you, Senator Thomas. Thank you, I 
will leave before you ask questions.
    Senator Thomas. Well, we'll have some for you, of course.
    [Laughter.]
    Senator Stabenow. I very much appreciate your allowing me 
to say a few words about a very important bill to Michigan that 
Senator Levin and I have introduced, and I appreciate your 
allowing me to speak now. As you may know, in the Banking 
Committee, we are currently marking up the GSE bill, so I'm 
running back and forth. I also know my colleagues, Senator 
Sarbanes and Senator Santorum who are also on the Banking 
Committee, have bills and want to appear before your committee. 
But I very much appreciate your hearing on this important bill. 
Senator Thomas, Senator Akaka, thank you very much for your 
leadership on the committee, and of course, Senator Salazar, 
thank you for being here.
    I'm speaking today about the Michigan Lighthouse and 
Maritime Heritage Act. Senator Levin and I introduced this bill 
because we believe it's important to our maritime heritage, and 
it's important to provide education and interpretation to the 
public of the great maritime heritage in Michigan. I invite all 
of you to come to Michigan, if you have not, to enjoy the 
beauty of our great State.
    This bill has long had broad bipartisan support in the 
Michigan delegation. Congressman Dave Camp just introduced the 
bill today in the House, and has been my colleague on the House 
side, working on this issue for us. I also want to take the 
time to thank Steve Belko for traveling all the way from 
Michigan to testify before the subcommittee today.
    The Great Lakes are an inseparable part of Michigan's 
identity, and our cultural heritage. Our 3,288 miles of 
shoreline cover a larger distance than the entire eastern coast 
of the United States. Michigan's landscape reflects our deep 
bond with the Great Lakes, and the associated industries that 
have shaped our State from the time of the earliest settlers.
    We're very proud that Michigan has the most lighthouses of 
any State in the Nation, totaling 120 lighthouses. At one time 
we had over 100 staffed lighthouses, which was more than any 
other State. Our lighthouses are no longer staffed, because of 
advances in technology, but they remain a symbol of the 
importance that the Great Lakes has played, and continue to 
play, in Michigan's history.
    In addition to our famous lighthouses, Michigan is also 
home to the Nation's only freshwater marine sanctuary, the 
Thunder Bay National Marine Sanctuary. We have historic 
shipwrecks and numerous maritime and lighthouse museums.
    The purpose of my bill is to link all of these elements 
together--history, lighthouses, maritime sanctuaries, 
shipwrecks and museums--so that Michigan residents and all 
visitors to our great State, have a wonderful insight into the 
importance of the Great Lakes in the settling, the growth and 
the development of our history.
    Specifically, S. 1346 will help develop Federal, State and 
local partnerships by requiring the National Park Service to 
work with the State of Michigan and local communities to study 
and make recommendations to Congress on the best ways to 
promote and protect Michigan's lighthouses and maritime 
resources. These recommendations would include specific 
legislative proposals for the preservation of lighthouses and 
maritime history. For example, they may call for the creation 
of a State-wide trail, highlighting the historic features of 
our shorelines and lighthouses--I would love to see that. The 
recommendations would also include the identification of 
funding sources from Michigan communities, which are critical 
to this effort.
    Finally, Mr. Chairman, my bill will also promote tourism 
for the local economies of our Great Lakes communities. Our 
shoreline towns host visitors from across the country who 
travel to view the magnificence of our coastal areas and the 
lighthouses that illuminate them. These small communities are 
more dependent than ever on tourism dollars, and we must help 
them by coordinating our efforts to protect Michigan's 
lighthouses, and promote our Great Lakes maritime culture.
    I want to thank you, again, for allowing me to come on S. 
1346 in today's hearing. I'm hopeful that the subcommittee and 
the committee will support the legislation and move it to the 
floor so that we can continue our broad, bipartisan effort in 
Michigan to preserve and protect our history and our assets on 
the Great Lakes. And I invite you, at any time, to come join 
us, and we will show you some wonderful beauty in Michigan. 
Thank you.
    Senator Thomas. Thank you very much, Senator, for being 
here, we appreciate it.
    Now we'll go back to the questions for the Director, and 
we'll try and time those. Let me ask about the Rocky Mountain 
land occupancy issue. It's my understanding that back in 1979 
it was offered, the land, as a life estate. However, the final 
agreement was for a 25-year estate. Do you know how the final 
agreement came about? That is the final agreement; is that 
right?
    Mr. Martin. Yes, the final agreement was for a 25-year 
term. I don't know exactly how it came about, except that it 
was done through negotiation. We do have some correspondence 
from Mr. Dick's attorney where he talked about a 25-year use 
and occupancy as well as the life tenancy, so I know that both 
of those options were in play, but exactly what resulted in the 
decisionmaking, I'm not aware of.
    Senator Thomas. So what would be necessary to change that? 
I think you suggested that under some conditions--what would be 
necessary to cause that to happen? Would there have to be 
congressional action, or can the Department do that?
    Mr. Martin. We have looked extensively at the authorities 
that we have, and feel that we don't have the authority to 
extend this to a life tenancy. Right after the current 
situation came up, the region and the park provided a short-
term extension for the summer, as we looked into it. We have 
offered some additional time, as we plan for the continued use 
of the property, but we really feel--and we're really looked at 
it hard--that we don't have that current authority.
    Senator Thomas. Now, I think you mentioned there are nearly 
300 similar cases throughout the park Service. What kind of a 
precedent would we be setting in terms of arrangements that 
have been made? Should this happen here?
    Mr. Martin. I think we have to be sensitive to that. The 
lands were purchased for the American public, just as in the 
previous testimony on the land issues in Maine that are 
similar, where we're working within the boundaries of parks to 
acquire these lands, I think that under the right conditions, 
we feel that some more general legislation could provide 
flexibility for unique situations. It would have to be clearly 
laid out.
    In this particular case, on the individual legislation, we 
feel that some amendments, including fair market for the 
property, opening some of the property to the public and a few 
other amendments, would make it acceptable.
    Senator Thomas. I understand there's a bill pending, or a 
bill suggested that would be broad for this and other 
arrangements as well.
    Mr. Martin. We've been requested to do drafting service on 
a bill that would look at some broader flexibility for in-
holdings. That's the status of it. Other than that, we have, of 
course, stated in the testimony that we're willing to work with 
the committee in evaluating what might be fair to, not only to 
this situation, but to future ones that come up.
    Senator Thomas. With regard to the Benjamin Franklin 
tricentennial, how much funding has the park Service provided 
in the past?
    Mr. Martin. Very little. We helped some with a 
presidentially-appointed commission on a matter of thousands of 
dollars, and they did receive a Save America's Treasures grant 
for $300,000, which is one that we make available, but 
otherwise there has been no funding.
    Senator Thomas. So this is not a parks facility?
    Mr. Martin. That's correct.
    Senator Thomas. The Star-Spangled Banner Trail, is that a 
trail, or is that a series of activities that took place? Why 
is it called a trail, and why should it be called a trail?
    Mr. Martin. Yes, it's a series of activities, but I think 
the concept of a trail linking them together to commemorate the 
Star-Spangled Banner and the events that went on and working 
with the groups that have come together on it as that campaign 
went on, I think it is appropriate as a trail.
    Senator Thomas. That is not recognized as any unit of the 
Federal Government now?
    Mr. Martin. No. We have areas, certainly, that represent 
portions of that story within the National Park System. By 
adding it to the trails system--we've done similar things 
elsewhere, like Lewis and Clark, where you have an opportunity 
to work with a broad array of partners that manage through 
their own jurisdictions and work together.
    Senator Thomas. I know it's difficult, but somehow we have 
to start having, it seems to me, some kind of a definition of 
what can be Federal designations and what can be local and 
State. Now, your testimony was that you support the idea of 
this being a Federal designation?
    Mr. Martin. Yes, but this Federal designation really lays 
out an opportunity to cooperate, as opposed to the traditional 
National Park Service model where we own all of the properties. 
It's really a recognition of working together.
    Senator Thomas. What would it be called, then?
    Mr. Martin. It would be part of the National Trails System.
    Senator Thomas. National Trails System?
    Mr. Martin. Yes.
    Senator Thomas. Okay. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. Thank 
you, Mr. Martin, for your testimony. I just want to be sure 
that your testimony did include supporting the extension of the 
authorization of the advisory commission at Kalaupapa National 
Historical Park. I also note that you have suggested the make-
up of the commission is something that we need to look at, 
because of the age of the patients who serve on the commission. 
We'll certainly consider that. Also, I'd like to tell you that 
in Hawaii the people tend to live longer than we think, and I 
would prefer that we keep the composition until the time comes, 
so that they don't feel that the make-up will change while 
they're still alive. But that's something to consider. I thank 
you so much for the support you've given.
    I have, Mr. Chairman, a letter from the residents of 
Kalaupapa in support of S. 1166, and I ask that it be included 
in the record with my full statement.
    Senator Thomas. It will be included.
    Senator Akaka. Mr. Chairman, also there is a statement of 
Senator Paul Sarbanes of Maryland on the designation of the 
Star-Spangled Banner Trail in the States of Maryland and 
Virginia, and the District of Columbia as a National Historic 
Trail. Senator Paul Sarbanes is submitting this for the record.
    Senator Thomas. It will be included.
    [The prepared statement of Senator Sarbanes follows:]

Prepared Statement of Hon. Paul S. Sarbanes, U.S. Senator From Maryland

    Thank you, Mr. Chairman and Members of the Subcommittee for 
scheduling this hearing on S. 958, to designate the Star-Spangled 
Banner Trail in the States of Maryland and Virginia and the District of 
Columbia as a National Historic Trail.
    The Star Spangled Banner National Historic Trail would commemorate 
an extremely important period in the history of our nation--one that 
has often been overshadowed by other conflicts in our nation's 
history--but which is quite significant in understanding our national 
heritage. It would tell the story of the important events that occurred 
in this region during the War of 1812 including the British invasion--
the only combined naval and land attack on the United States, the 
Battle of Bladensburg, the burning of the White House, the Capitol and 
the Washington Navy Yard, and the Battle of Baltimore during the summer 
of 1814. It is, of course, out of this battle that Francis Scott Key 
watched the tremendous bombardment at Fort McHenry and wrote the words 
which were to become our National Anthem. This is a very compelling 
story of our patriots' determination to stand firm against this enemy 
attack and bombardment that preserved our democracy, helped form our 
national identity through the symbols of the National Anthem and the 
Star Spangled Banner, and had such a long lasting effect on American 
culture.
    Over the past five years, the National Park Service has conducted a 
vigorous investigation and determined that five of the eight trail 
segments examined fully meet the three principal criteria for inclusion 
in the National Historic Trail System, that is, they retain historic 
integrity, are nationally significant, and have significant potential 
for public recreational use and historic interpretation. The 
feasibility study and environmental impact statement which was 
completed in March 2004, recommends as its preferred alternative that 
``the proposed Star Spangled Banner National Historic Trail . . . be 
established by Congress as a national historic trail with commemorative 
recreation and driving routes and water trails.'' The proposed National 
Historic Trail would be comprised of approximately 175 miles of land 
and 373 miles of water routes within the States of Maryland, Virginia 
and the District of Columbia. The study concluded that the costs of 
implementing the proposed trail would be minimal. No federal 
acquisition of trail sites is envisioned, and less than $2.5 million 
would be required to develop the comprehensive management plan, conduct 
archeological surveys and provide interpretation.
    In my view, this trail will be of tremendous historical and 
educational benefit to the Nation. Since the passage of the National 
Trail Systems Act of 1968, the Congress has recognized historically 
significant routes of exploration, migration and military action 
through the National Historic Trails Program. Routes such as the Lewis 
and Clark, Pony Express and Selma to Montgomery National Historic 
Trails cross our country and represent important episodes of our 
nation's history--episodes which were influential in shaping the future 
of this country. The inclusion of the Star-Spangled Banner Trail will 
give long overdue recognition to another of these important events. As 
we rapidly approach the bicentennial of the War of 1812, I very much 
hope that the committee will consider this legislation and report it to 
the Senate floor favorably.

    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Thomas. Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Craig and 
ranking member Akaka. Let me first say that I would ask 
unanimous consent to include my opening statement with respect 
to the Betty Dick issue into the record.
    Senator Thomas. Without objection.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Good morning, Chairman Thomas, Senator Akaka. Thank you for holding 
this hearing today in the midst of a busy week. I appreciate the 
opportunity for the committee to hear more about H.R. 432/S. 548, ``The 
Betty Dick Residence Protection Act''.
    I'd like to ask unanimous consent that my opening statement and a 
statement from Congressman Udall be placed into the record.
    I'd like to welcome Mrs. Betty Dick and thank her for coming all 
the way to Washington to testify.
    Betty Dick is an 83 year old woman who has spent much of the past 
25 years on property within the boundaries of Rocky Mountain National 
Park in Colorado. Over the course of those 25 years, Betty Dick has 
become a cherished part of the Grand Lake community. She's been a good 
citizen and has been happy to share her family's beautiful cabin for 
civic events, and she has been a good neighbor to the National Park. In 
fact, the Park Service refers to Mrs. Dick as a ``model tenant''.
    But now, the National Park Service believes that it is compelled to 
evict Betty Dick. This bill would authorize and instruct the Park 
Service to allow Mrs. Dick to spend her last summers at her cherished 
home
    Mrs. Dick has been living on this property subject to a settlement 
agreement with the Park Service that allowed for the Dick's occupancy 
for 25 years and expired earlier this month. There are circumstances 
around the settlement agreement that suggest that the settlement was 
supposed to be for the duration of Fred and Betty Dick's lives.
    Fred Dick, Betty's husband, died in 1992. Mrs. Dick knows she 
doesn't have too many summers left, but she would like to spend them at 
her family home. My bill will ensure that the federal government-and in 
particular the NPS-respects the basic dignity of this woman living out 
her days in her house.
    This bill goes back to the original settlement that was supposed to 
allow Fred and Betty Dick to occupy the land for the duration of their 
lives. In 1979, the Department of Interior met with the Dicks and 
agreed that a life estate was an appropriate settlement, and put it in 
writing. Then the deal disappeared. Mrs. Dick feels that they were the 
victims of a classic bait and switch. I sincerely hope that was not the 
case. I believe the parties to the NPS/Dick settlement intended to give 
Mr. Dick and his wife Betty the equivalent of a life estate. The 25-
year lease was apparently based on the faulty assumption that Mr. and 
Mrs. Dick would not survive the term of that lease. We owe it to Betty 
Dick to correct that faulty assumption. We now know, and my bill 
recognizes, that Betty Dick has outlived the Park Service's original 
incorrect assumptions. This bill, far from setting a new precedent, 
simply corrects faulty assumptions.
    The Park Service will testify about the need to address in-holdings 
in other National Parks. To the extent there is a broader problem 
related to Park in-holdings, I would support legislation designed to 
address that problem. I cannot, however, support holding up a solution 
for Mrs. Dick while we wait for the Park Service to answer basic 
questions about the nature and extent of the perceived problem and its 
recommended solutions the problem.
    If there is a need for legislation to address in-holding situations 
there is no reason for Mrs. Dick to be held captive to the Park 
Service's pace. H.R. 432 has cleared the House of Representatives 
unanimously and it deserves to be evaluated on its own and in the light 
of the particular facts involved. How long should Betty Dick have to 
wait for a dignified resolution to her simple request to live out the 
remainder of her life in her family home?
    This bill will, simply, require the Secretary of the Interior's 
National Park Service to enter into an agreement that will allow Betty 
Dick to continue to occupy her family cabin and property within Rocky 
Mountain National Park for the rest of her life. Mrs. Dick will 
continue to pay the rent that has been due under the prior lease. Mrs. 
Dick's children and grandchildren will have no right to occupy the 
property after her death, and the cabin and property will then be 
managed by the Park Service.
    This bill recently passed the House unanimously and it has been 
sent to the Senate. It enjoys broad support in Colorado and I am 
hopeful that the subcommittee and full committee will act favorably in 
regards to this bill. Again, Mr. Chairman, thank you for conducting 
this hearing.

    Senator Salazar. And I also would ask unanimous consent 
that we include Representative Mark Udall's statement into the 
record.
    Senator Thomas. Without objection.
    [The prepared statement of Representative Udall follows:]

      Prepared Statement of Hon. Mark Udall, U.S. Representative 
                             From Colorado

    Thank you, Mr. Chairman, and thank you for holding this hearing on 
my bill, H.R. 432.
    The bill would permit Ms. Betty Dick to continue her use and 
occupancy of a house located on lands within Rocky Mountain National 
Park.
    The bill is not complicated. It would allow Ms. Dick to continue to 
use the property and live in this house in Grand County, Colorado, for 
the rest of her life.
    This is not about ownership. The property belongs to the federal 
government and is part of the National Park. There is no dispute about 
that.
    This is strictly about whether Ms. Dick should be permitted to 
continue to use the property.
    There is no dispute that she has had that right for the past 25 
years, under a legal agreement between her late husband and the 
National Park Service.
    There is also no dispute about the fact that this agreement expired 
on July 16th of this year. The National Park Service, through a letter 
from Rocky Mountain National Park Superintendent Vaughn Baker, has 
indicated that Ms. Dick can nevertheless remain on this property until 
mid-October.
    Although the Park Service has given her this additional time, as 
things now stand, come October of this year Ms. Dick, who has been a 
good neighbor with the National Park and who has opened her home for 
community events, will again face the unsettling prospect of having to 
permanently vacate this property.
    I do not think that is either necessary or desirable.
    As I said, Ms. Dick has been a good neighbor. She has taken good 
care of the property and has not created management or administrative 
problems for the National Park Service in the years she has lived 
there.
    In my opinion, she should be allowed to continue to live on this 
property and continue to contribute to the National Park and the 
surrounding community.
    I had hoped that Ms. Dick and the Interior Department could work 
out a resolution to this issue so that she could remain. Beginning in 
September of last year, on a number of occasions I urged the National 
Park Service to sit down with her and explore various options. 
Regrettably, these entreaties were either rejected or ignored, and no 
such discussions took place.
    Earlier this month, the National Park Service indicated that they 
would be willing to offer Ms. Dick a 2-year lease for $1,000 per month, 
which would allow her to stay while they evaluated the property and 
planned for its future use.
    Ms. Dick rejected this offer. I also had my own concerns with this 
proposal, as it would not necessarily allow Ms. Dick to remain on this 
property for the rest of her life, and, presuming Ms. Dick is still 
with us in two years hence, we would still be facing then the same 
situation we face today--that is, finding a workable and acceptable 
arrangement allowing her to remain on the property for the rest of her 
life.
    Given that this proposal has been rejected, and other efforts to 
work this out administratively have come to naught, I believe that this 
legislation provides a fair resolution that will give Ms. Dick the 
certainty and peace of mind about her future.
    The National Park Service has expressed concern that this 
legislation will create a ``precedent'' in that there are apparently 
many other individuals who occupy property within national parks.
    However, I believe that Ms. Dick's situation is unique because she 
has occupied this property under the terms of an agreement that settled 
an underlying lawsuit to void the sale of the property to the National 
Park Service. In addition, as this is a ``private bill,'' this 
legislation relates only to the particulars and equities of Ms. Dick 
and her occupancy--and no future Congress would be bound to consider or 
pass similar legislation.
    Ms. Dick needs to have a resolution to this issue as soon as 
possible.
    Since I first raised this matter with the Interior Department, I 
have been impressed with the outpouring of support from the nearby 
communities of Grand Lake and Granby, Colorado. The people in these 
communities have expressed a strong desire to have Ms. Dick remain on 
this property and be a part of their community. The bill would enable 
that to happen.
    I do not think this is a controversial measure. It was approved by 
the Resources Committee by unanimous consent and passed the House in a 
similar fashion. I urge its approval.
    Thank you again, Mr. Chairman.

    Senator Salazar. Mr. Martin, I have a series of questions 
that I would like to ask of you. And in the second panel today, 
we will be hearing from Betty Dick about her particular 
situation at Rocky Mountain National Park and the circumstance 
that has brought her here to Washington, some nearly three 
decades after this saga started. One of the things for me that 
is troubling with all this is that a circumstance that seems to 
be so easily fixable has become so seemingly difficult. As you 
said, in your testimony, from your point of view, if you had 
the authority, you could go ahead and act to resolve Mrs. 
Dick's situation, but right now you feel you lack that 
statutory authority. The House of Representatives passed 
legislation with the unanimous vote to fix her situation, and 
we are now here in the Senate with the park Service and the 
Department of the Interior taking the position that that 
legislation would have to be amended for the Department to 
support it, but you support the general goals.
    I will tell you that, from my point of view, what we're 
dealing with here is a very unique circumstance. It's not going 
to create precedent, because of the history of this particular 
situation, and I don't want to have Betty Dick, who's 83 years 
old, used as a political football by the Federal Government, or 
by anybody, because that's not how we ought to treat people.
    Now, when I go back and study the information, the records 
that have been put together over time with respect to this 
issue, I find a memorandum that was written by the Department 
of the Interior a long time ago, concerning a meeting that was 
held here by Betty Dick and her husband, Fred, and it was a 
meeting that was conducted at the suggestion and request of 
then-Senator Adlai Stevenson, and Senator Ted Stevens had his 
staff also attend the meeting. It was a result of that 
meeting--what we had was the Associate Director, at the time, 
writing a memorandum that said--it talked about the issue with 
respect to the Dick family, and it said, and I quote, ``At the 
request of Senator Adlai Stevenson's office, a meeting was held 
on November 16, 1979 at the office of the Chief-Land 
Acquisition. It was attended by Will Kriz, Allen Harpine, 
George Dick, Betty Dick, and others. Mr. Kriz suggested that on 
a technical acquisition, a compromise whereby George and Betty 
Dick would obtain a life estate on the house and surrounding 
outbuildings and a portion of the land seem to be in order. 
However, he advised that he needed to obtain views of 
management.''
    The memo then continues, and in subsequent paragraphs says 
the following, and again I quote, ``After discussing this 
matter with Superintendent Brooks, we concur with Mr. Kriz in 
the desirability of a life estate compromise. We feel that the 
following limitations should be part of the compromise,'' and 
they set forth what those limitations are which have been 
complied with. There's a subsequent documentation, then, that 
changes were made to the concept that had been agreed to in the 
meeting that was held at the direction of Senator Adlai 
Stevenson.
    I will ask you some questions--if I may, Mr. Chairman--and 
I want you to be straightforward with me, because here's where 
we are with Mrs. Dick. Her lease, under your interpretation, 
has expired. We're about ready, from a National Park Service 
point of view, to kick her off of her property. We have 
legislation that has passed the House unanimously, and we are 
now over here in the Senate. And if we end up going through the 
amendments that you have suggested, obviously this legislation 
is going to have to go back to the House, and we are going to 
end up in a situation where we are not going to be able to 
bring this matter together in a timely fashion to make sure 
that we give Mrs. Dick an opportunity to live out her life on 
her property, which she has been living on now for more than 
two decades.
    My question to you is this, in terms of the timeliness of 
moving forward, and providing the kind of equitable relief 
here, what would the amendments that you and the Department are 
suggesting do to that timeline, to be able to give her the 
closure to this issue as soon as possible?
    Mr. Martin. The question is, what our amendments are, or 
what would it do, or how long would it take to get them 
enacted? I guess I'm a little----
    Senator Salazar. What, from your point of view, would we be 
able--you know what I know, that is that----
    Mr. Martin. My sense is, throughout this, that we've 
already offered an extension through this year, and an 
extension while we plan for the future use of the property over 
the next 2 years. And, that said, we've struggled with how to 
be fair here. That's our current position with what we feel we 
have flexibility for.
    It seems reasonable to think, with the amendments, that 
there would be time within that timeframe to get those 
amendments in the bill and pass it. We have made that provision 
for extending Mrs. Dick's use of the property while we sort 
this out and while we plan for the future disposition of the 
property.
    Senator Salazar. Mr. Martin, I understand those amendments 
are amendments that Mrs. Dick has not been agreeable to, 
because she views that they are inconsistent with the terms 
that were agreed upon when this arrangement was first entered 
into, some 25 years ago.
    Let me tell you the concerns that I have with respect to 
the amendment. It seems to me that we could have legislation 
that fixes this problem--we could actually get that done, 
perhaps, even before we go home--but if we move forward with 
the types of changes that you're talking about, knowing how 
legislation moves around here, this 83-year old person, whom I 
have come to revere, is not going to get the kind of relief 
that she wants. And I think that she is rightly entitled to it, 
given the discussion and the memorandum that were put together 
some 25 years ago, giving her the understanding that she had a 
life estate on this property.
    Let me ask you a second question. I hear a lot about 
precedent, and I understand your position, you feel you don't 
have the authority to do this deal that we want to do with Mrs. 
Dick. Well, we can, through this legislation, give you that 
authority so it gets done. You raise a concern that this might 
create a precedent that's unwarranted. I have looked at other 
situations where, in fact, the National Park Service has done 
this at the direction of Congress. There's a situation 
involving the Indiana National Sand Dunes, and there was 
another situation involving a place called Biscayne-
Stiltsville, in which apparently the in-holding was handled 
with this kind of legislation.
    Given that kind of precedent that has occurred before, it 
seems to me that it would be appropriate to support this 
legislation because of its uniqueness. And I also recognize, 
Mr. Martin, that there may be a larger issue here. So, let me 
ask this questions. In terms of a precedent, are you here 
telling the committee today, Mr. Martin, that there have been 
no other situations in the recent history of the park Service 
where we have dealt with an in-holding in the manner that we 
propose to address it here in this legislation?
    Mr. Martin. To the best of my knowledge. Are you saying 
have there been other cases where we, the Park Service, have 
converted a 25-year use and occupancy to a life lease?
    Senator Salazar. My question is, has the Congress in the 
past dealt with this kind of an issue, having a kind of in-
holding that basically has given you the authority to basically 
resolve it and make it into a life estate?
    Mr. Martin. I know that there have been other cases where 
Congress has stepped in and changed the way we've administered 
things, but I don't know of any, specifically, like this 
particular one. That doesn't mean that there couldn't be, we've 
administered--I think there are over 400 that we've closed out 
in the past, and there are 290 or so of these that currently 
exist. I think there are roughly 50 expiring this year, but I 
don't know of any exactly like this. But that doesn't mean that 
there couldn't have been.
    Senator Salazar. There might have been, and the Congress 
might have, in fact, stepped in to correct the situation.
    Mr. Martin. Yeah.
    Senator Salazar. Let me ask you a question about the 
longer-term issue, because this is a matter that I very much 
agree with Chairman Craig on, that if, in fact, there is a 
significant issue with respect to the other, some 300 in-
holdings that we have in our National Park System, that we 
should, in fact, address that. And I think it would be the 
appropriate jurisdiction of this Committee to deal with that 
broader issue. And I would be very happy to work along with 
Senator Craig and the National Park Service to get that longer-
term issue resolved.
    I would like you to describe for us how you see this 
situation today in terms of those other in-holdings, and the 
kind of problems that we're having with those other in-
holdings, and also what kind of contours you would put around 
legislation that this committee might consider to address the 
in-holding situation in other parks around the country.
    Mr. Martin. Well, I think that we have to work with you and 
really work with our lands and parks to come up with what 
unique situations exist and where it might be fair to adjust 
commitments, or----
    Senator Salazar. Do we know today, Mr. Martin, where those 
unique situations exist? Can you, as the Assistant Director of 
the National Park Service, come in and give us a listing of 
what those unique situations are?
    Mr. Martin. I would say no, that we can come in and tell 
you where those exist, But I think that we would have to go out 
and evaluate each one, because there's a tremendous variety. 
They exist in over 30 parks, and having been in parks that have 
administered these, each one is tough. This is not something 
that we really relish, it's a hard thing, and where they've 
been acquired, like Grand Teton, where we've had to move people 
out, where it's their primary residence, we've worked with them 
as best we could with our authorities to give them the time to 
find another place in an extremely competitive market. So I 
think we could come up with general categories from our 
experience of executing the previous 400 or so that we have 
closed and, I think, come up with some reasonable terms. Things 
like, where it's their primary residence, significant economic 
hardship, unusual terms and conditions--like this one--where 
there was some uncertainty in exactly how the agreement came 
together. I think we could come up with--from the knowledge 
that we have--what would seem reasonable in being compassionate 
in big government in regulating these, but also preserving the 
interests of the American people, to make these properties 
available for recreation and other things, which is the intent 
of their purchase. So, we would be happy to do that, and work 
hard to get that information to you.
    Senator Salazar. And Mr. Martin, let me just say that I 
very much look forward to working with you on that, but my 
understanding is, as yours is, that because of the uniqueness 
of each one of these in-holdings and the development of 
legislation that would try to address this on a broader issue, 
it's going to take us some time to get there, and I very much 
look forward to working with you on that. I ask you on behalf 
of the park Service, are you willing to work with me, and to 
work with Senator Craig and others on this committee to develop 
that kind of legislation?
    Mr. Martin. Yes.
    Senator Salazar. Then let me also ask you, if we were able 
to move forward with the legislation that I have proposed here 
today concerning Mrs. Dick's situation, would that in any way 
negate the effort to move forward with this broader legislation 
that we're addressing here this morning?
    Mr. Martin. I don't think so.
    Senator Salazar. I very much appreciate your testimony, and 
I don't mean to be hostile, but I am very concerned about--
given the history of this very unique situation, that we see 
our national government essentially kicking somebody out of 
their household, which has been their family home for so long. 
I appreciate your candidness.
    Mr. Martin. Thank you.
    Senator Thomas. Okay, thank you. I know this is a difficult 
one, so we certainly would look forward to working with you. I 
do think, as I understand it, as a matter of record, that the 
agreement was a 25-year agreement, regardless of the 
misunderstanding. That is the agreement that is in place that 
we have to deal with.
    Senator Salazar. If I may, Chairman Thomas?
    Senator Thomas. Sure.
    Senator Salazar. I respect my neighbor from the North, 
because you've walked amongst the ranches and corrals, just 
like I have in my life, so I have tremendous respect for you, 
and it is true that I think the legal document that you 
currently have in place has a 25-year life estate, but the 
understanding that Mrs. Dick had when she had the meeting at 
the request of Adlai Stevenson gave her the very distinct 
impression that----
    Senator Thomas. I understand that, and I don't mean to take 
away the importance of that, I just want to get on the record 
that the agreement that the park is going by is a legal 
agreement for 25 years. So we'll have to work with that, but we 
will work together to do something.
    Thank you very much, I guess I have one short question on 
this Michigan----
    Mr. Martin. The lighthouses?
    Senator Thomas. The lighthouse thing. Now, that's a study; 
is that correct?
    Mr. Martin. Yes, that is a request for a study.
    Senator Thomas. I see. But you're not supportive of that 
idea?
    Mr. Martin. Right. We certainly support the concept of 
working together for tourism, and with these affiliated areas, 
our feeling is that that kind of cooperation could be achieved 
without going into a study that we have to fund.
    Senator Thomas. I understand. Thank you very much. Thank 
you, Mr. Director, nice to have you here.
    Mr. Martin. Thank you.
    Senator Thomas. Okay, let's go to our second panel now, 
please. Dr. Ralph Eshelman, Dr. Dennis Wint, Dr. Steve Belko, 
and Mrs. Betty Dick, if you'd all come to the table, please.
    I certainly appreciate all of you being here, and look 
forward to your testimony. If you have written statements, they 
will be included in the record. If you could sort of shorten up 
your statements, we'll try to get 5 minutes on each statement.
    So why don't we start with you, Dr. Eshelman.

           STATEMENT OF DR. RALPH ESHELMAN, LUSBY, MD

    Dr. Eshelman. Good morning, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to be here to 
testify in support of the Star-Spangled Banner National 
Historic Trail. I think Mr. Martin did a good job in 
summarizing that, in particularly emphasizing the fact that 
this is a partnership.
    But there is also one other thing that I think is 
important, and that is that this is a grassroots effort. The 
whole concept of this trail actually came from the people who 
live in the community in this region, so I definitely want that 
to be noted as a part of the record.
    Also, this is not a War of 1812 trail. This is a trail 
which tells the story about the Star-Spangled Banner and how 
that flag inspired a poem which became our National Anthem. 
And, Mr. Chairman, you had asked the question of Mr. Martin, is 
this, in fact, a trail, or is it merely some events that are 
connected together, and I want to address that, because it is, 
indeed, a trail. It has a documented path where the British 
invaded southern Maryland from Benedict on the Patuxent River. 
They marched to Bladensburg, where we had that ill-fated battle 
where, you know, the Americans lost; they marched into 
Washington, DC, where we are today; they captured our Nation's 
Capital, and they burnt the public buildings, including the 
Capital, which is just a stone's throw from here, and also the 
White House, which is just down the street.
    The trail also documents the trail that was used by the 
British when they attacked Baltimore. And many people don't 
understand, but that's also a water trail as well as a land 
trail. There was a land component to the Battle for Baltimore, 
and that's known as the Battle of North Point today.
    So to answer your question, yes, in fact, this is an 
actually documented trail that has been well-studied. The study 
team has had scholars from England, from Canada, and throughout 
the United States that have helped work on this particular 
trail, all of the members of the study team have visited all of 
the resources along that trail, and I can emphatically tell you 
that it meets all the requirements of being listed as a 
National Historic Trail.
    If you would like me to go into more detail on the 
specifics of where that trail actually goes, I'm happy to do 
that, but it is also well-documented in our reports that we 
have provided, as well as in my written testimony that will be 
a part of this record.
    So instead, what I'd really like to do is to concentrate on 
a personal reflection of the purpose and really. The 
significance of this trail. And that is that, unfortunately, 
many Americans don't fully appreciate or understand our own 
history. And if we were to do a poll of the children in our 
schools today, and we were to ask them two simple questions--
under what war was the Star-Spangled Banner created, and Who 
made that flag?--unfortunately, we would get the wrong answers 
from most of our children. I think most of our children would 
say the Revolutionary War, and it was made by Betsy Ross, and 
of course that's not the case at all.
    And that's the importance of this trail, it's going to help 
Americans, as well as visitors that come to this country, to 
better appreciate and understand America's foremost icon, in my 
opinion, the Star-Spangled Banner and to help people understand 
how the words of the National Anthem came about, so that when 
you hear the words, ``the rockets' red glare,'' or ``the bombs 
bursting in air'' that you understand that that was a part of 
the Battle of Baltimore. And so, to me, that is the 
significance behind this particular trail. It's going to help 
to raise patriotism, it's going to help to make people better 
understand our own history about really our foremost icon, the 
Star-Spangled Banner. It's preserved at the Smithsonian 
Institution, again, not very far from where we are here today.
    So I personally am asking your support for this trail, and 
anything I can do to help, or answer any questions that you 
have in that regard, I'd be more than happy to do.
    [The prepared statement of Dr. Eshelman follows:]

          Prepared Statement of Dr. Ralph Eshelman, Lusby, MD

    First I would like to thank the Chair and the members of this 
Subcommittee on National Parks to allow me to testify in support of an 
amendment to the National Trail System Act to add a new historic trail, 
the Star-Spangled Banner National Historic Trail. I have been involved 
in cultural resource preservation and management for over thirty years 
and served as the historian for the Star-Spangled Banner National 
Historic Trail Study. I can think of no existing or potential historic 
trail in the United States that is more deserving of this national 
distinction then the trail we are now considering.
    The Star-Spangled Banner National Historic Trail Study was approved 
by the Secretary of Interior after exhaustive research and review by 
numerous scholars and several public presentations. The proposed Star-
Spangled Banner National Historic Trail meets all the criteria for 
designation as required by the National Trail System Act. Below is a 
brief summary of the significance of the War of 1812, how the Star-
Spangled Banner came about as a result of this war, criteria upon which 
the proposed trail was determined eligible for National designation, 
and a personal perspective on the potential significance of inclusion 
of this proposed trail into the National Trail System.
    What was the War of 1812? Because it took place only 29 years after 
the United States secured its freedom from England, the War of 1812 is 
sometimes incorrectly referred to as the ``Second War for 
Independence.'' However, the British were not fighting to regain their 
former American colonies. Rather, they sought to protect their 
remaining North American interest, Canada. The Revolutionary War 
(Loyalists versus Revolutionists) and American Civil War (Yankees 
versus Rebels) were in many instances wars of brother against brother. 
The War of 1812 was an international conflict (Great Britain versus the 
United States), even though Americans were divided over it (Federalists 
Doves versus Democrat-Republican Hawks). New Englanders were especially 
against the war, while the South and West largely favored it.What 
caused the War of 1812? It is estimated that by 1807 over 1,000 
Maryland sailors alone had been illegally and unwillingly pressed into 
service on British warships, mostly to help England fight Napoleon. On 
June 21, 1807, the US frigate Chesapeake left the Washington Navy Yard 
and sailed down the Potomac River and the Chesapeake Bay into the 
Atlantic. It was soon hailed by the larger British warship HMS Leopard, 
which demanded that the frigate muster its crew so a search could be 
conducted for British ``deserters.'' The Chesapeake refused, whereupon 
the British opened fire, killing three American sailors, then boarded 
and took four men, two of whom were black and two of whom were nephews 
of George Washington. President Thomas Jefferson, trying to avoid war, 
retaliated by placing an embargo on all English goods. However, this 
curtailed commerce, which especially upset New Englanders, since they 
controlled most American shipping, and thus their fortunes were most 
threatened. As a result, there was talk of secession. While the new 
administration under President James Madison emphasized the maritime 
issues with England, the war was largely a result of the desire for 
national expansion. The southern and western slaveholding states, led 
by War Hawks such as John C. Calhoun and Henry Clay, wanted war with 
Britain in order to push the annexation of Canada, expand the western 
and southern frontiers, remove the threat of alliance between Britain 
and the Indians of the Great Lakes region, and help prevent slaves from 
escaping beyond American borders. While valid maritime issues did 
exist, they were less the cause of the war than a pretext for public 
outcry, as expressed by the slogan that it was necessary to protect 
``free trade and sailors rights.'' After a war vote that barely passed 
in the Senate, President Madison signed the declaration of war against 
Great Britain on June 18, 1812. American opposition to the war was as 
widespread as that during the Vietnam War. Early American forays into 
Canada for the most part resulted in routs, but Captain Oliver Perry's 
victory at Lake Erie eased the threat of British attack from the west. 
Still, the victory of the USS Constitution (``Old Ironsides'') over the 
HMS Guerriere, and American privateers who successfully took the war to 
the shores of England, were isolated successes among an otherwise 
dismal affair for America due to the small size of the U.S. regular 
army and navy, over reliance on volunteer militia as well as 
ineptitude, lack of leadership, stupidity and woeful lack of 
preparedness for a major conflict. By 1814 the British Navy has 
blockaded nearly the entire east coast reducing foreign trade to six 
percent of its 1807 peak. With the defeat of Napoleon England 
concentrated its efforts on America. The War of 1812 was the first and 
only time a foreign military force invaded the United States. Our young 
Nation's capitol was burnt in 1814 in retaliation for America's burning 
of York (now Toronto), then the capitol of Upper Canada, in April of 
the previous year. Had not Baltimore and Lake Champlain been 
successfully defended, the British probably would have crushed the 
United States. New England Federalists convened in Connecticut to 
denounce the war and weaken federal authority. Southerners called the 
act treason. The last major battle of the War of 1812 was the Battle 
for Baltimore September 24, 1814. The Peace Treaty of Ghent was signed 
in Belgium, December 24, 1814. The American victory at the Battle of 
New Orleans was fought on January 8, 1815, 15 days after the Treaty. 
The war was over. The annexation of Canada was blocked, but the nation 
could now look inward and westward. Citizens for the first time had 
confidence in the nation and could now truly refer to themselves as 
Americans. How did the Star-Spangled Banner became a national icon? The 
United States had done nothing to defend its capital, Washington. Only 
a relatively small detachment at Fort Warburton (later called Fort 
Washington) on the Potomac River protected the city. Although it was 
estimated that 15,000 militiamen could be depended upon to defend 
Washington, in reality the government could muster only 1,000 regular 
troops and about 4,000 militiamen, and of the latter only a few hundred 
were actually available and ready. Although some government leaders 
believed that Washington was not a likely enemy target, British forces 
embarked upon a plan to capture the capital in 1814. The main body of 
the British fleet entered the Patuxent River in Maryland and landed 
forces at Benedict to march overland to Washington. A smaller fleet 
entered the Potomac, in part as a feint to make the Americans think 
that was the direction of the invasion, but also to take Fort Warburton 
and provide a water route for land forces retreating from Washington, 
if necessary. With most of the regular U.S. Army on the Canadian 
border, the defense of the nation's capital fell largely to poorly led, 
poorly trained, inexperienced militia. How much could be expected of 
them in the face of battle-hardened British soldiers, many just 
arriving after defeating Napoleon in Europe? When the British returned 
through Upper Marlboro after successfully capturing Washington some 
British deserters began plundering small nearby farms. Robert Bowie, a 
former governor of Maryland, enlisted Dr. William Beanes, his cousin, 
among others, who seized six or seven of the deserters and confined 
them to a jail at nearby Queen Anne Town. One of the prisoners escaped 
and informed his commander of the incident. A contingent of British 
marines was sent to arrest Bowie, Beanes and at least one other man. 
The Americans were held in exchange for the British prisoners. In 
addition the British threatened to burn the town to the ground if the 
British prisoners were not released by noon the next day. When the 
British prisoners were released all the Americans were likewise 
released except Beanes who was considered the instigator of the 
incident and was taken and placed in confinement aboard the British 
flag-ship HMS Tonnant some thirty-five miles away at Benedict. Beanes's 
friend, Richard W. West, hurried to Georgetown to urge his brother-in-
law, U.S. Attorney for the District of Columbia, Francis Scott Key, to 
arrange a mission to seek Beanes release. President James Madison 
authorized Key to meet with General John Mason of the U.S. Commissary 
for Prisoners. Mason approved the mission and gave Key a letter 
addressed to General Robert Ross in command of the British land forces 
setting forth the government's case for Beanes's release as a civilian 
noncombatant. Key was instructed to go to Baltimore and contact Colonel 
John Stuart Skinner, U.S. Agent for Exchange of Prisoners, to handle 
the negotiations. Ironically, it was Skinner who did a Revere-like ride 
to warn the capitol of the British approach in August 1814. Skinner and 
Key, set sail down the Bay from Baltimore (September 5, 1814) to near 
the mouth of the Potomac River on a cartel or truce ship, where they 
met the British fleet and boarded the HMS Tonnant under a flag of truce 
when Vice Admiral Sir Alexander Cochrane invited them to dinner 
(evening, September 7, 1814). Skinner had also obtained letters from 
wounded British soldiers left behind after the Battle of Bladensburg 
giving testimony to the kindness and treatment given them by U.S. 
hands. This so moved General Ross, who had ordered the arrest of 
Beanes, that he suggested to Cochrane to release him, but only after 
their planned attack on Baltimore--they did not want the American 
forces to learn of their next objective. Beanes, Key and Skinner, due 
to crowded conditions on HMS Tonnant, were ordered on board the HMS 
Surprize which took the cartel in tow (September 8, 1814). During the 
Battle for Baltimore the three Americans at Skinner's request were 
placed on board the cartel under guard. Key was so moved by the scene 
of the battle that he partially composed a poem which eventually became 
our National Anthem. The three American's were released on the cartel 
boat which sailed to Baltimore (late September 16, 1814). That night in 
the Indian Queen Hotel Key worked on his poem from which he produced 
the draft that probably is the one now on exhibit at the Maryland 
Historical Society. Handbills of the poem were printed the day after 
(September 17, 1814) Key arrived in Baltimore. Copies of the poem were 
distributed to every man who was at Fort McHenry during the 
bombardment. It was Skinner who took Key's poem to the Baltimore 
Patriot which published it under the title ``The Defense of Baltimore 
(evening 20 September 1814).
    During the American Civil War federal troops often sang ``The Star-
Spangled Banner.'' In 1895 Army Regulations ordered that the song be 
played during the lowering of the American flag during evening retreat. 
The Secretary of Navy ordered it played during both morning and evening 
colors. By 1916 ``The Star-Spangled Banner'' was regarded as the 
official National Anthem. Yet it wasn't until 3 March 1931, when 
President Herbert Hover signed the bill passed by Congress that ``The 
Star-Spangled Banner,'' born in the Battle for Baltimore, officially 
became National Anthem of the United States.
    Study Team Methodology--The Study Team researched all the resources 
related to the story behind the Star-Spangled Banner. The team visited 
those resources and linking trail to ascertain the feasibility, public 
access and integrity of these resources. In addition the team held a 
Scholar's Roundtable of international experts on April 7, 2001. Present 
were: Dr. Dwight Pitcaithley, Chief Historian, National Park Service; 
Donald Graves, historian and scholar from Canada; Dr. Andrew Lambert, 
Kings College, London; Marilyn Zoidis, curator of the Star-Spangled 
Banner Project, Smithsonian Institution; Dr. Donald Hickey, professor 
at Wayne State College and specialist in the War of 1812; and Dr. 
Joseph Whitehorne, former staff historian for the U.S. Army. This was 
followed by a local historian's workshop on April 12, 2001. Present 
were: Dr. William Dudley, director of the Naval Historical Center, 
Washington, DC; Christopher George, editor of the Journal of the War of 
1812 and author of Terror on the Chesapeake: The War of 1812 on the 
Bay; Dr. Fred Hopkins, Jr., expert on privateering and author; Sally 
Johnston, director of the Star-Spangled Banner Flag House and Museum; 
Dr. Stanley Quick, historian; Robert Reyes, president of the Friends of 
the North Point Battlefield, Inc; Scott Sheads, author and historian, 
Ft. McHenry; Donald Shomette, historian and author; and Lonn Taylor, 
historian and author of the Star-Spangled Banner: The Flag that 
Inspired the National Anthem.
    Based on this study, the team determined that six of the eight 
identified trail segments retain integrity sufficient to result in a 
recommendation for their designation as a national historic trail: 
Criterion One. All recommended trail segments were found to be 
nationally significant: Criteria Two. The proposed trail segments have 
significant potential for public recreational use and historical 
interpretation as well as aesthetic appeal and patriotic appreciation: 
Criteria Three.
    Personal Perspective--It is sad, but most of the children here in 
the United States if asked who made the Star-Spangled Banner and during 
which war was it created would answer Betsy Ross and The American 
Revolutionary War. Inclusion of the Star-Spangled Banner Trail within 
our National Trail System will help American's and visitors alike 
understand and better appreciate the history behind America's greatest 
icon--The Star-Spangled Banner and the poem evoked from the flag which 
eventually became our National Anthem. Having served-for many years on 
the team which studied the potential for this trail, I have become 
keenly aware of the significance and meaning behind the Star-Spangled 
Banner. Every time I see the flag, whether at a baseball game, Boy 
Scout camp, or flying over our Capitol or over Fort McHenry, it gives 
me pause. Often times a chill will ascend up my spine. Designation of 
this proposed national trail will enable our citizens to better 
understand and appreciate the symbolism behind this flag. Many more 
will get goose bumps when they see our flag and hear our National 
Anthem. Our patriotism will increase; our pride will fill; and our 
spirits will soar. I ask you, what trail now existing in the United 
States is more appropriate for national designation than this proposed 
Star-Spangled Banner National Historic Trail?

    Senator Thomas. Thank you very much, sir.
    Dr. Belko.

  STATEMENT OF DR. STEVE BELKO, MANAGER, MICHIGAN LIGHTHOUSE 
                      PROJECT, OXFORD, MI

    Dr. Belko. I want to thank you, Mr. Thomas, and Mr. 
Salazar, for the opportunity to present the position of 
Michigan's lighthouse and maritime interest, both governmental 
and non-profit, in support of S. 1346, the Michigan Lighthouse 
and Maritime Heritage Bill.
    From the very beginning, I want to state that this bill is 
the most important piece of legislation, to date, that will aid 
and facilitate the restoration of Michigan's rich maritime 
heritage, including lighthouses, which is my specialty, and not 
only that, provide a foundation for the economic growth of the 
local communities along our coastline.
    In light of Mr. Martin's testimony, I want to change a 
little bit of what I had planned for my oral testimony. He was 
correct in stating that Michigan, the National Parks in 
Michigan, as well as our State Parks are phenomenal, my wife 
and I use them often. But Michigan has a long way to go to 
preserve its lighthouses and its maritime heritage, it has a 
long way to go to provide that economic foundation that the 
local communities and the State of Michigan, itself, can build 
upon.
    Maritime heritage is the most important aspect of 
Michigan's tourism, hands down, and lighthouses are a key part 
of that. This plan, S. 1346, does provide a comprehensive plan 
for all of the State of Michigan, and for the rest of the Great 
Lakes States to model upon for, not only preserving, but 
setting in motion a plan to identify and to interpret, and then 
to provide a plan for the long-term preservation of Michigan's 
rich maritime heritage, and to provide a plan for the 
exhibition of that for the public to enjoy for generations to 
come, and identifies funding sources, and all the needs, from 
technical to economic development, that the State of Michigan 
needs.
    I have a lot of experience in lighthouse preservation 
efforts, and a lot of experience in comprehensive heritage 
studies, such as S. 1346 provides, and I will say today that I 
know that this is the bill that Michigan needs to take it into 
the future.
    Tourism is our second-largest industry in the State of 
Michigan. Our number one industry is a little lagging behind 
right now, and this is something that the people of Michigan 
greatly need. And I'm certainly here on behalf of all of the 
maritime, both governmental and non-profit organizations and 
individuals in the State of Michigan and its lighthouse 
organizations. We fully support S. 1346, and we think this will 
provide the comprehensive plan to set us in motion to preserve 
our maritime heritage and help the local economies throughout 
the State of Michigan. Thank you for your testimony, and I'll 
be happy to answer any questions.
    [The prepared statement of Dr. Belko follows:]

            Prepared Statement of Dr. Steve Belko, Manager, 
                Michigan Lighthouse Project, Oxford, MI

    Mr. Chairman and fellow subcommittee members, I want to thank you 
for the opportunity to present the position of Michigan's lighthouse 
interests, both governmental and nonprofit, regarding S. 1346, entitled 
the ``Michigan Lighthouse and Maritime Heritage Act,'' a bill to direct 
the Secretary of the Interior to conduct a study of maritime sites in 
the state of Michigan.
    I must emphasize from the very start of my testimony, that Sen. 
Stabenow's bill is the most important piece of legislation to date 
aiding and facilitating the preservation of Michigan's rich maritime 
heritage and providing an unparalleled opportunity for continued 
economic growth in our state. As an expert both on lighthouse 
preservation efforts and on comprehensive heritage studies, such as 
proposed under S. 1346, I cannot express enough how critical this bill 
is to the people of our state, to our maritime heritage, and to our 
local economies.
    It is no secret that the state of Michigan--the Great Lakes state--
is one of this nation's premier maritime destinations, with a rich 
maritime heritage and culture stretching back long before European 
colonization and settlement. From Native American fishermen and French 
fur traders, to Great Lakes shipping supporting the great copper, iron 
ore, and lumber legacy of Michigan, to pristine and rugged shorelines, 
the people of Michigan have indeed a maritime heritage worthy of 
treasuring and exhibiting for all to enjoy. The state contains twelve 
maritime-related national landmarks, two extensive national lakeshores, 
and the only fresh water national maritime sanctuary. Our state's 
history--its settlement, its development, its economy, and its 
culture--cannot be told without emphasizing first and foremost our 
extensive maritime legacy.
    It is also no secret that the cornerstone of Michigan's maritime 
heritage are the numerous historic lighthouses stretched across our 
great state. The state of Michigan has over 120 historic lighthouses--
more than any other state. Many reside along the extensive 3,200 miles 
of Michigan's shoreline; some stand miles offshore on remote islands or 
isolated shoals. All have historical and architectural significance and 
are either listed or eligible for listing in the National Register of 
Historic Places. These architectural wonders once served as crucial 
beacons to Great Lakes shipping, but now they have yielded to the 
advance of technology. The era of global positioning has made the 
Fresnel lens antiquated to all but recreational boaters and lighthouse 
enthusiasts. Simple metal poles supporting computerized navigation 
instruments have replaced the brick and steel towers with their 
adjacent keeper's dwellings and ancillary outbuildings.
    Yet these historic structures still attest to the rich maritime 
history of the state. Their very presence still commands awe from those 
who catch sight of them and lighthouse lore never fails to capture the 
attention of all who pass their way. Michigan's lighthouses, many in a 
state of disrepair and in danger of disintegrating, stand witness to 
the great age of the lighthouse keepers and their isolated lives 
struggling to keep the shipping lanes of the Great Lakes safe. 
Dedicated groups endeavoring to save this integral part of the state's 
history have restored some of Michigan's lighthouses. Several of these 
lighthouses now house museums devoted to lighthouse history and 
maritime culture, and are open to the public for their pleasure and 
education. Many more lighthouses, however, are in dire need of 
restoration. Without quality stewards to preserve, maintain, and 
exhibit these ailing structures, they will certainly vanish from the 
landscape, only to exist in our collective memory, in old photographs, 
or in dusty log books.
    Michigan's lighthouses have become the state's most identifiable 
icon, gracing tourism guides, welcome centers, city logos, and 
countless marquees, billboards, business publications, and storefronts. 
Travel Michigan, the state's ``tourism bureau,'' has as its logo, a 
lighthouse, and the State of Michigan's official website likewise 
sports a lighthouse, the beautifully restored Big Sable Point Light 
Station residing along the blue waters of Lake Michigan. Rescuing these 
historic structures and maintaining them for public enjoyment has 
obviously emerged as one of Michigan's most popular endeavors.
    S. 1346 provides the people of Michigan with a comprehensive plan 
for rescuing and restoring our lighthouses and other maritime 
structures and landscapes. The study will assess the needs and outline 
the costs of preserving our historic lighthouses and maritime 
resources; it will identify funding sources critical to a successful 
campaign for restoring and exhibiting our maritime history; and, it 
will provide the necessary and much-needed direction for implementing 
preservation projects, for establishing methods of interpreting our 
rich maritime heritage, and for laying out a long-term strategy for 
future restoration efforts. And I must add, that this bill will not 
only benefit Michigan and the Great Lakes region, it will also provide 
a model for other states to follow as they, too, preserve their own 
heritage and historical resources.
    As important, this study will generate a centralized and complete 
inventory of our state's maritime resources, by bringing together the 
knowledge of local, regional, state, and national entities interested 
in saving Michigan's maritime resources. The bill will further 
establish and facilitate healthy partnerships among all levels of 
government and throughout all the communities lying along our 
shoreline, and combine their talents and skills in creating a network 
of organizations and individuals dedicated to preserving and exhibiting 
Michigan's abundant maritime resources. The creation of the Michigan 
Maritime Heritage Destination Network will undoubtedly link all 
maritime interests and resources in our state into a working 
cooperative, providing shared information and technical expertise, 
mapping out future preservation efforts, and guaranteeing the 
successful exhibition of Michigan's lighthouses and maritime heritage 
for generations to come.
    Passage of S. 1346 is not only imperative for preserving our 
state's maritime heritage, it is equally critical for boosting the 
future economic potential of our state. Tourism is the second largest 
industry in Michigan, and with our largest industry (the automotive 
industry) currently facing hard times, we must invest in the state's 
ability to attract substantial numbers of tourists.
    Our maritime heritage can indeed draw great numbers of tourists, 
and our maritime heritage and resources are indeed the foundation for 
increasing our tourism base. As such, S. 1346 will help guide the state 
of Michigan in implementing a strong and effective plan of action for 
expanding and capitalizing on the tourist-oriented sector of our 
state's economy. Preservation of the state's lighthouses and other 
maritime structures and resources will bring much-needed dollars into 
local communities, directly affecting other segments of the local 
economies, from restaurants, hotels, and gas stations, to retail shops 
and local attractions. In short, this bill is imperative for the 
economic growth and vitality of the local communities directly affected 
by this legislation, and it will yield significant economic dividends 
for the state of Michigan and for the Great Lakes region in general.
    In closing, the lighthouse and maritime interests within the state 
of Michigan vigorously support passage of S. 1346, providing the people 
of Michigan and of the Great Lakes overall with a comprehensive plan 
for emphasizing the importance of the maritime heritage of the region 
and for augmenting the economic development of the local communities 
residing along the extensive Great Lakes shoreline.
    Mr. Chairman, this concludes my remarks. I would be pleased to 
answer any questions you or other members of your committee may have.

    Senator Thomas. Thank you very much.
    Dr. Wint.

    STATEMENT OF DR. DENNIS M. WINT, PRESIDENT AND CEO, THE 
              FRANKLIN INSTITUTE, PHILADELPHIA, PA

    Dr. Wint. I'm Dennis Wint, president and chief executive 
officer of the Franklin Institute in Philadelphia. I very much 
appreciate the opportunity to testify on behalf of S. 652, to 
authorize Federal funding for the rehabilitation of the 
Benjamin Franklin National Memorial, which is our Nation's 
primary and most visited memorial to Franklin. I want to also 
extend my gratitude to the sponsors of this legislation, 
Senator Arlen Specter and Senator Rick Santorum, for their 
continuing support.
    Mr. Chairman, I'd also like to thank you and the 
subcommittee for passing this legislation last year, in the 
108th Congress. Despite our best efforts, however, the House 
did not have the time to pass the measure.
    I'm pleased to report that on April 14, 2005, 
Representative Jim Gerlach introduced legislation, H.R. 1645, 
so the House will be able to have the opportunity to join the 
Senate in considering this bill. We urge you, respectfully, to 
pass favorably on this legislation.
    Founded in 1824, the Franklin Institute is the Nation's 
premiere science and technology museum, and also the custodian 
of the Benjamin Franklin National Memorial. In the spirit of 
inquiry and discovery embodied by Ben Franklin, the mission of 
the Institute is to honor the lifetime achievements of Franklin 
and to foster a development of a scientifically and 
technologically literate society.
    The memorial was unveiled in 1938. It is the same size and 
scale as the Abraham Lincoln memorial, featuring a pantheon-
inspired marble rotunda, and a massive statue of Franklin.
    The statue was created by the great American sculptor James 
Earle Fraser, whose work also includes the buffalo nickel, and 
the bust of Theodore Roosevelt. Nearly one million visitors 
visit the national memorial each year. Over 350,000 of those 
are school children.
    The memorial is unique, because unlike other national 
memorials in the United States, as we have heard, it does not 
receive any funding for its support and maintenance operations. 
In 1972, Public Law 92-511 designated the Benjamin Franklin 
Memorial. In 1973 a Memorandum of Agreement directed the 
Department of the Interior to cooperate with the Franklin 
Institute in all appropriate and mutually agreeable ways in the 
preservation and the presentation of the Benjamin Franklin 
Memorial as a national memorial. This agreement also requires 
that the Institute admit the public, free of charge.
    However, the Institute is a 501(c)(3), not-for-profit 
corporation, and over the past 67 years, the burden of 
maintaining the Memorial has been our responsibility, and we 
have spent nearly $20 million from our operating and our 
capital budgets to preserve and maintain the Memorial since its 
opening in 1938.
    Despite our best efforts, I regret to inform the 
subcommittee that this national treasure has fallen the victim 
of the pressures of time, especially the marble surfaces in the 
structure that houses the statue of Ben Franklin. The 
Department of the Interior has not provided any funds in 
support of the National Memorial, with the exception of a 
$300,000 grant from Save America's Treasures in fiscal year 
2000. This fund helped improve ADA access, but left other 
issues unresolved.
    January 17, 2006 marks the 300th anniversary of the birth 
of Ben Franklin. In recognition of that momentous occasion, 
President Bush signed into law H.R. 2362, creating the Benjamin 
Franklin Tercentenary Commission. This Commission, which I co-
chair with Senator Specter, specifically recommends the re-
dedication, and other appropriate activities related to the 
National Memorial. As a result, the Institute is currently 
engaged in a private fundraising program that will match any 
funds that are invested by the Department of the Interior. It 
is also crucial that we receive the authorization on 
appropriation so that this can coincide with the anniversary of 
Franklin's birth.
    Accordingly, we do respectfully urge the subcommittee to 
support S. 652, and enact it prior to the celebration of 
Franklin's birth in January 2006.
    Mr. Chairman, and members of the subcommittee, thank you 
for the opportunity to testify on this very important issue, 
and I'm happy to answer any questions you might have.
    [The prepared statement of Dr. Wint follows:]

       Prepared Statement of Dennis M. Wint, President and CEO, 
                the Franklin Institute, Philadelphia, PA

    Good morning.
    I am Dr. Dennis Wint, President and Chief Executive Officer of The 
Franklin Institute of Philadelphia, Pennsylvania.
    I very much appreciate your willingness to consider Senate Bill 
652, to authorize Federal funding for the rehabilitation of the 
Benjamin Franklin National Memorial, our nation's primary and most-
visited monument to Franklin. I would like to take this opportunity to 
extend my gratitude to the sponsors of this legislation, Senator Arlen 
Specter and Senator Rick Santorum, for their steadfast support for this 
project.
    Mr. Chairman, I would like to begin by thanking you and the 
Subcommittee for helping to pass this legislation in the Senate during 
the 108th Congress. Despite our best efforts, unfortunately, the House 
did not have the time needed to consider the measure through regular 
order. I am pleased to report that on April 14, 2005, Congressman Jim 
Gerlach introduced companion legislation, House of Representatives Bill 
1645, so that the House will again have an opportunity to join the 
Senate in considering this bill.
    I am appearing today to respectfully urge the Subcommittee to 
favorably report this legislation because it will authorize the 
appropriation of funding that is critical to the integrity of one of 
our nation's most awe-inspiring national memorials.
    Unveiled in 1938, The Benjamin Franklin National Memorial is on the 
same scale as the Abraham Lincoln Memorial and features a Pantheon-
inspired marble rotunda and massive white-marble statue of a seated, 
introspective Franklin. The statue was created by the great American 
sculptor James Earle Fraser, whose works include the Buffalo Nickel and 
a bust of then Vice-President Theodore Roosevelt which is housed in the 
Senate's own collection.
    This national memorial is unique, because unlike other national 
memorials throughout the United States, it does not receive an annual 
allocation of Federal funds to support programs, operations, or 
preventative maintenance.
    Founded in 1824, The Franklin Institute is one of the nation's 
premier science and technology museums and also serves as custodian of 
the Benjamin Franklin National Memorial.
    In the spirit of inquiry and discovery embodied by Benjamin 
Franklin, the mission of The Franklin Institute is to honor the 
lifetime achievements of Franklin--America's distinguished scientist, 
statesman, inventor, diplomat, and founding father, and to foster the 
development of a scientifically and technologically literate society.
    Indeed, The Franklin Institute brings Franklin's legacy of inquiry, 
discovery, and learning to nearly one million visitors each year, more 
than 350,000 of whom are schoolchildren. Every visit to The Franklin 
Institute begins with a moment of reflection and inspiration in the 
Benjamin Franklin National Memorial.
    In 1972, Public Law 92-511 designated this site as the Benjamin 
Franklin National Memorial.
    In 1973, a Memorandum of Agreement, executed between the U.S. 
Department of the Interior and the Franklin Institute, directed the 
Department of Interior to cooperate with the Institute in ``all 
appropriate and mutually agreeable ways in the preservation and 
presentation of the Benjamin Franklin Memorial Hall as a national 
memorial.'' Under the terms of the 1973 Agreement, the Institute is 
required to admit the public to the Memorial free of charge.
    However, The Franklin Institute is a 501(c)(3) non-profit 
organization and, over the last 67 years, the burden of maintaining 
this National Memorial has been the total responsibility of the 
Institute. Nearly $20 million has been expended from the Institute's 
operating and capital budgets to preserve and maintain the Memorial 
since it's opening in 1938.
    In spite of our diligent efforts, I regret to inform the 
Subcommittee that this national treasure has fallen victim to the 
pressures of time, especially the exterior and interior marble surfaces 
and structures that house the statue of Benjamin Franklin.
    The Interior Department has not provided any federal funding for 
maintaining this National Memorial, with the exception of a $300,000 
``Save America's Treasures'' grant awarded in Fiscal Year 2000 with 
support from Senators Specter and Santorum. Although this funding did 
help to improve ADA accessibility to the Memorial, it left other 
structural issues unresolved. To address these issues, The Franklin 
Institute is currently engaged in a private fundraising campaign that 
will match dollar for dollar any funds invested by the Department of 
the Interior.
    Mr. Chairman, 2006 marks the 300th anniversary of the birth of 
Benjamin Franklin. Given this important opportunity for our Nation to 
remember and celebrate Franklin, we are eager to commence work to 
renovate and restore the Memorial. Timely passage of this legislation 
will make our plan possible.
    In July 2002, President George W. Bush signed into law House 
Resolution 2362, that created the Benjamin Franklin Tercentenary 
Commission. This Commission, which I co-chair with Senator Specter, 
specifically recommends rededication of and other appropriate 
activities related to the National Memorial.
    Since the Memorial Hall's opening, tens of millions of Americans 
have had the opportunity to salute Franklin's remarkable impact in 
Philadelphia. As we continue to develop plans to welcome visitors from 
throughout the world during the Franklin Tercentenary, it is vital that 
we begin a meticulous restoration process that will make the Memorial a 
place of appropriate reverence to Dr. Franklin on the upcoming 
momentous anniversary of his birth.
    Our private fundraising campaign will help match our request for 
federal assistance. However, it is critical for The Franklin Institute 
to secure this authorization and subsequent appropriations to ensure 
that the Benjamin Franklin National Memorial is preserved and presented 
to future generations in a manner befitting Benjamin Franklin's 
enormous legacy for our Nation.
    A rehabilitated Memorial will present Franklin and his 
inspirational story for the study and observation of future generations 
of Americans and citizens worldwide.
    Accordingly, I respectfully urge this Subcommittee to support 
Senate Bill 652 so that it may be enacted prior to the national 
celebration of Franklin's life beginning in January 2006.
    Thank you for your invitation to testify on this very important 
matter and I would be delighted to answer any questions that you or 
other distinguished Members of Subcommittee may have.

    Senator Thomas. Thank you very much.
    Mrs. Dick, welcome.

            STATEMENT OF BETTY DICK, GRAND LAKE, CO

    Mrs. Dick. Chairman Thomas, Senator Salazar, and members of 
the Subcommittee on the National Parks, thank you for your kind 
consideration of my plight. I'm here to speak in favor of H.R. 
432 and/or S. 584, and to acquaint you with the reasons why you 
should vote favorably on one of these pieces of legislation.
    I'm the widow of George F. Dick, known to his family and 
friends as Fred, who died in 1992. I'm 83 years old, and during 
the summer months I live on a 20-acre parcel that is within the 
boundaries of Rocky Mountain National Park.
    This property was bought by Fred, and his former wife, 
Marilyn, in 1961. In the settlement of Fred and Marilyn's 
bitter divorce in June 1977, Marilyn received the property, and 
Fred received the right of first refusal to buy it.
    Without giving Fred his right of first refusal, Marilyn 
sold the property to the U.S. Government in October of that 
year. When Fred discovered that the property had been sold, he 
sued Marilyn and the Government, demanding that the Government 
honor his right of first refusal.
    In the Spring of 1978, I married Fred, and so I became an 
interested bystander to the struggle and witnessed the events 
that I want to bring to your attention. These events will 
explain the uniqueness of my situation and why this is not a 
precedent-setting case.
    It was after interminable depositions, hearings and the 
like, and thousands of dollars spent on two law firms that Fred 
and I--without our lawyers--traveled to Washington, DC, in 
November 1979 to see if the case could be settled. In a meeting 
with various officials representing the Department of the 
Interior, it was agreed that the case would be settled. Fred 
and I were each to receive a life estate in the property, Fred 
was to give up 44 acres, which was two-thirds of his land, and 
to pay a settlement fee of $7,500. We were not mistaken in our 
understanding of this agreement.
    Shortly after this meeting, on November 26, 1979, the 
Associate Regional Director of Park Operations at the Rocky 
Mountain National Park circulated a memo which recounted that 
November meeting, and specifically cited the Department of the 
Interior's recommendation that we were to get a life estate to 
settle this case. It's this memorandum you have as Exhibit A, 
and Senator Salazar has read that to you, so I will not repeat 
that, but it's the meeting with Mr. Kriz and Ted Stevens' 
Committee at that time.
    Papers were drawn to settle the case based upon the 
agreement that we would have a life estate, specifically. And 
you have a Stipulation that is Exhibit B, and a Judgment, 
Exhibit C, that were drawn, which expressly stated that Fred 
and I would have a life estate on the property. And I want to 
add here, that after that meeting in 1979, Fred was certain 
that this settlement agreement would be a life estate.
    And we came back to the ranch in the late Spring, because 
it's 9,000 feet up, and you can't get into it in the 
wintertime. He had the property completely re-fenced so that 
the Government would have its 44 acres. He had it re-fenced for 
the 23 acres that were to remain. This was all done at his 
expense. And all of this time, during the winter, three 
statements came, certain preliminary statements saying ``life 
estate''.
    So he gave up the property, he sent the $7,500, and within 
a month, Exhibit D came, and that was the Exhibit that says 25 
years. So Fred had agreed, as a gentleman, to his part of this 
agreement, but the Government had not honored their part.
    When Fred saw the change, he was devastated. Realizing that 
he had, once again, been out-maneuvered, he also realized that 
he could no longer afford the litigation against the 
Government, with its unlimited resources and lawyers, which by 
past experience had not honored his right of first refusal.
    Saying that it would not make a difference, since he would 
not live another 25 years, he signed the settlement agreement. 
And that's what you have attached as Exhibit D, which you, 
Chairman Thomas, had talked about.
    As it turned out, Fred would not live so long that there 
would be a difference between a life estate and a term of 25 
years, but I'm still here, and it makes a difference to me. At 
83, I have just a few years of life left. For the last 25 years 
I've been a good neighbor to the park and the employees, who 
feel comfortable just dropping in for a cup of coffee or just 
to check on me, which I'm grateful for. I've been heavily 
involved in the Grand Lake community, making my home and 
grounds available for several organizations for their summer 
picnics and cookouts. I've served on the Board of the Rocky 
Mountain Repertory Theatre for over 5 years, two as president. 
The Grand Lake Board of Trustees and the mayor in our little 
town have voted to support my request, and I have huge support 
from the Grand County community. As long as my health continues 
to be good, I intend to continue in these community activities, 
just as I have in the past. That is, if I have my home to live 
in.
    I watched litigation that went on for too long and cost too 
much money. Then, when we thought we had the matter settled, 
the Government changed the deal. At that point, having 
exhausted our resources, both physical and financial, Fred just 
took what he could get, even though it was different from what 
had been agreed upon.
    I respectfully ask the subcommittee to consider the 
fairness of this matter, and to give me what was agreed upon in 
November 1979, nothing more. I also ask the subcommittee to 
note that I was party to the settlement originally made with 
the Government, but the settlement papers were only signed by 
Fred. As a result, the contract I have with the Government has 
never been honored, and I have never agreed to any change. The 
Government's obligation remains outstanding that I receive a 
life estate in exchange for the money paid. The National Park 
Service does not want to talk about this, but I do.
    One further thing. The Government's contention that their 
hands are tied because there was a court order is not true. The 
fact is, there was a settlement between Fred and the 
Government, and the case was dismissed. There was no court 
decree entered. If this matters, the facts ought to control. As 
you can plainly see, this is a settlement agreement, not a 
lease, and because of its uniqueness, it is not a precedent-
setting case.
    I thank you for your consideration, and I will respect 
whatever decision you make.
    Senator Thomas. Thank you. Thank you all, very much.
    Just a couple of quick questions. Mr. Eshelman, would the 
establishment of this trail entail the purchase of more lands 
by the Federal Government?
    Dr. Eshelman. No, sir. At this time, there's no 
anticipation of trying to acquire any land. In fact, in the 
legislation, I believe it states that there would not be any, 
so I do not believe that's a problem at all.
    Senator Thomas. I see. From your testimony, you believe 
because of the history this is a logical Federal designation, 
as opposed to local or State?
    Dr. Eshelman. Without question. I mean, what more could you 
ask for than a trail that's going to tell our citizens about 
the Star-Spangled Banner? To me, it's the premiere icon of the 
United States, it has national significance.
    Senator Thomas. Dr. Belko, you talked about the impact on 
the economy and so on; is that justification for a Federal 
designation?
    Dr. Belko. Well, I certainly think so.
    Senator Thomas. Well, I know you do, but if you were 
setting up a principle for parks and national establishments, 
would it be because of the local economy?
    Dr. Belko. Absolutely not. I think the premiere aspect--the 
thing we need to focus on about this bill is it provides a 
plan, an outline, if you want to say, a kind of Bible for the 
restoration of all of Michigan's maritime resources. And it's 
just not for identification and interpretation for public 
enjoyment, it goes a step further. We can incorporate that 
maritime heritage, which is so critical to our State's history, 
into the local economies. It becomes a way for them to bring in 
tourists, to make money from restaurants and gas stations and 
hotels. So it is--I wouldn't even say indirect, I would call it 
a direct consequence--a benefit from this.
    Senator Thomas. Would there be a plan, an arrangement, in 
your view, to raise local money and participation financially?
    Dr. Belko. Absolutely. I think one of the neatest things 
about this bill, one of the more important aspects is that it 
is a cooperative effort, from Federal Government down to our 
State government, and to all of the non-profit organizations, 
and the local governments, some wonderful organizations. They 
have a direct role in this, in this partnership, to create this 
maritime heritage destination network. They would share 
technical expertise and assistance, funding sources, and it 
would provide great benefits to the State of Michigan, so the 
partnership is key.
    Senator Thomas. I appreciate it, thank you.
    Dr. Wint, as I understand it, the Franklin Institute 
contemplated non-Federal funding, and as you've indicated, 
there's basically--I guess there's one little instance, but 
non-Federal funding, is that correct?
    Dr. Wint. That is correct. The Memorandum of Understanding 
in 1973 did indicate there would be cooperation in mutually 
agreeable ways with the National Park Service. It did not 
explicitly or implicitly state that there would be Federal 
support. However, 30 years ago, I don't believe we could have 
envisioned what has happened today, particularly with the 
celebration of Franklin's 300th anniversary beginning in 
January, nor the enormous growth of the Institute in terms of 
our attendance.
    In 2002, our attendance was 711,000, this past year it was 
934,000. We expect it to reach a million or more, and every 
person who comes, sees the Franklin Memorial.
    Senator Thomas. What do you contemplate the cost will be 
for the restoration of the statue and the construction of the 
displays?
    Dr. Wint. The total cost would be $18 million, which 
includes the restoration of the memorial hall, and the creation 
of a museum devoted to Franklin that would be built immediately 
adjacent to Franklin Hall. So the visitor would come in, see 
Franklin Hall, and then turn left and go into this museum. We 
would fundraise for the balance of the money from private 
sources.
    Senator Thomas. All right. Well, thank you. Thank you, Mrs. 
Dick, for being here. We appreciate your testimony and we 
really look forward to working with you.
    Senator.
    Senator Salazar. First, Dr. Eshelman, I commend you for 
your project, and also for recognizing the importance of 
teaching the history and heritage of this great Nation to the 
American public, but particularly toward children, so thank you 
for coming before the committee today.
    Mrs. Dick, I wanted--first of all, Mr. Chairman, I'd ask 
your consent and the consent of the committee that the exhibits 
that were referred to by Mrs. Dick be entered as part of the 
record of this proceeding.
    Senator Thomas. Without objection.
    Senator Salazar. I want to make a comment, Mrs. Dick. It is 
now 26 years ago that you came to Washington, DC, with your 
husband, without a lawyer. Today, 26 years later, you come to 
Washington, DC, now without him, but again without a lawyer. 
You sit at a witness table here in one of our hearing rooms of 
the U.S. Capitol. You talk to us about your plight, and the 
issue that you want this committee to consider, and the request 
for a favorable vote on S. 584. I just want to commend you for 
having that courage.
    Most of the time what happens at this Capitol are the 
people who we hear from are not ordinary Americans. We hear 
from people who are either somehow tied into the bureaucracy, 
or paid millions of dollars to do what they do. You, on the 
other hand, have come here asking your government to do 
something that would help resolve a situation that has been 
outstanding for a very long time, and I'm very hopeful that you 
will be able to work with all of my colleagues in the U.S. 
Senate, to afford you the same kind of relief that was 
recognized by all members of the U.S. House of Representatives.
    Let me ask one question of you, in terms of your management 
of the land during the time period that you've been there, over 
a quarter century, have there been any issues in terms of the 
management of the property between you and the Park Service, or 
has it been a good, positive relationship?
    Mrs. Dick. For the most part, it's been very positive, and 
I certainly do appreciate the Superintendent, the present 
Superintendent, and all of the people who work there. As I 
indicated in my testimony, the rangers stop in and we have a 
good relationship. I have been responsible for the maintenance 
of all the buildings and the insurance on the property, I pay 
every year. I feel that it's been a great experience, and they 
do too, I think, if you ask any one of them. In fact, there are 
a great many of them who have stopped by and said, ``We sure 
hope you get to keep your property,'' and that is very 
encouraging.
    I do want to make another statement, if I may, Chairman 
Thomas, and that is that the park has only come to me within 
the last week with any effort to negotiate at all. We have made 
every effort through our Congressman, and through Senator 
Salazar, and through many of my friends, just to get them to 
sit down and talk to me about this, and they claim that there 
is nothing they can do administratively. It was a week ago, 
Tuesday, when I was first told about this negotiation, which 
went on without my knowledge, and I was notified by the press. 
NBC called me and asked me how I felt about this negotiation 
that was taking place, and I just said, ``What negotiation? I 
don't know anything about this.'' And when they came to me the 
following day, from the park, the Superintendent, to present 
the terms of the negotiation--which I hadn't known anything 
about--and tell me I can be on some kind of a lease, which was 
to be for 2 years, while they start to plan what they're going 
to do with my property. And I was concerned about that, because 
I thought surely they had some plan for it, but they're just 
now beginning to think what they're going to do with those 
buildings that they got.
    So the park has no plans, and they're asking me to stay in 
limbo for another 2 years, while they decide what they're going 
to do with the property. And in the meantime, they're cutting 
back on their personnel in the park, they're cutting back on 
their programs in the park, and I do not see how they can 
maintain that property, or how they can destroy it, which is 
another thing that has been threatened. And I can't negotiate 
when they come to me 9 days before I'm to appear here, with 
this kind of a settlement, whereby they take away everything 
but three to five acres, and expect me to pay what they call 
``fair market value'' of $1,000 a month for what's left.
    It's been a misunderstanding from the very beginning. And I 
really appreciate your listening to my story, because it is 
complicated, and it is unique, and that's why it's hard to 
explain. Thank you both so very much.
    Senator Thomas. You're more than welcome.
    Senator Salazar. Mrs. Dick, thank you very much for having 
made the trip, again. And to you, Chairman Thomas, I appreciate 
your courtesy this morning, and your leadership of this 
committee. Thank you very much.
    Senator Thomas. If there are no further questions--if we 
have any questions further, we may ask them, and other members 
may have questions over the next month, otherwise the 
committee's adjourned. Thank you all for being here.
    [Whereupon, at 11:23 a.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                                    The Franklin Institute,
                                 Philadelphia, PA, August 11, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas: Thank you so much for inviting me to testify 
on July 28, 2005 before the Senate Subcommittee on National Parks on 
Senate Bill 652, which would authorize the National Park Service to 
provide up to $10 million in funding for the revitalization and 
rehabilitation of the Benjamin Franklin National Memorial.
    I appreciated the opportunity to be introduced to you by Senator 
Rick Santorum prior to hearing and to offer testimony on the importance 
of passing this legislation to duly and appropriately recognize 
Benjamin Franklin, our distinguished scientist, statesman, and 
diplomat, given the upcoming 300th anniversary of his birth.
    As I testified, I respectfully urge the Subcommittee to favorably 
report this legislation so that it might be enacted in a timely manner, 
so as to coincide with Franklin's 300th birthday on January 17, 2006.
    I have enclosed herewith responses to the questions posed in your 
letter of August 1, 2005. Please let me know if you require any 
additional information.
    Thank you for your interest and consideration.
            Sincerely,
                                            Dennis M. Wint,
                                                 President and CEO.
[Enclosure.]
      Responses of Dennis M. Wint to Questions From Senator Thomas
    Question 1a. The bill authorizes $10 million and requires matching 
funds for any Federal money. How much do you estimate that it will cost 
to restore the Benjamin Franklin statue and construct the proposed 
displays?
    Answer. The cost of the total Benjamin Franklin Memorial Project is 
$20 million.
    The first priority is to clean the Memorial, restore and repair all 
marble surfaces, and restore and clean the statue. The second, and 
equally necessary, phase of the project would be to address 
longstanding structural issues in the rotunda dome and skylights, 
replace defunct lighting and sound systems, and relight the Memorial in 
a dramatic fashion.
    The final phase of the project would be to create a facility 
adjacent to the Memorial to house a nationally significant collection 
of priceless Franklin artifacts, and to add a next generation, state-
of-the-art, Franklin multi-media learning experience that would make 
this site even more of an American destination.
    The estimated expenses for this project are as follows:
             NATIONAL MEMORIAL RESTORATION AND RENOVATIONS:
Accent lighting and sound system..............................  $153,000
Memorial lobby upgrades.......................................   705,000
Repairs to skylights, roof monitors...........................   430,000
Mechanical and electrical.....................................   400,000
Cleaning, restoration of marble surfaces......................   710,000
Multimedia experience......................................... 5,000,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Restorations and renovations subtotal.....................$7,398,000
                    --------------------------------------------------------------
                    ____________________________________________________

           PRESERVATION AND EXHIBITION OF FRANKLIN ARTIFACTS:
Site development........................................      $8,800,000
Exhibit installation....................................      $2,800,000
Fees, escalation, contingency...........................      $1,000,000
                    --------------------------------------------------------
                    ____________________________________________________
        Franklin Memorial Museum subtotal...............     $12,600,000
                    --------------------------------------------------------
                    ____________________________________________________
TOTAL PROJECT COST......................................     $19,998,000
                    ========================================================
                    ____________________________________________________

    Question 1b. Have you identified potential funding sources for the 
matching funds?
    Answer. Yes. The Institute will raise the matching funds primarily 
from the private sector, including private foundations, corporations, 
and individuals. As a 501(c)(3) non-profit organization, the Institute 
relies on a host of private and public funding sources to operate with 
a balanced budget. The Institute has identified several of these 
funding sources as potential providers of matching funds for any 
Federal investment in this project. The Institute may also pursue 
funding from the Commonwealth of Pennsylvania.
    The Institute's capacity to succeed in raising matching funds is 
evidenced by a recently completed $61 million life-safety and HVAC 
renovation project, of which nearly $28 million was provided as part of 
matching or challenge grants. The Institute anticipates similar success 
in matching any Federal funds invested in the Benjamin Franklin 
National Memorial.
    Question 1c. Have you raised any money towards the effort to date?
    Answer. No. While the Institute does has several private funding 
sources that have expressed interest in funding this project, these 
requests are pending until passage of S. 652 and subsequent 
appropriations. The level of support from the Federal government will 
dictate both the scope and pace of this project.
    The Institute has contributed an estimated $50,000-$100,000 out of 
its own operating budget to develop this comprehensive plan for the 
Memorial.
    Question 1d. Have you begun any of the restoration or construction 
work?
    Answer. Yes. The Institute was able to make the Memorial ADA-
accessible in 2000-2001, partially made possible through a grant of 
$300,000 from the Save America's Treasures program, which was provided 
with support from Senators Rick Santorum and Arlen Specter. In 
addition, the Institute raised more than $800,000 from private sources 
and the Commonwealth of Pennsylvania to improve access in the Memorial 
for a total estimated cost of $1.1 million.
    For the continuing renovation efforts, the Institute has consulted 
with an architect, a project manager, experts in the restoration of 
historic facilities, educators, and a multi-media firm in developing 
plans for the revitalization of the Memorial.
    No additional restoration or construction work has been initiated 
since these upgrades because the planned restoration requires public 
and private funding. Further, significant limitations on visitor 
traffic to and through the hall would limit the celebrations planned 
for Franklin's 300th. Upon enactment of S. 652, the Institute expects 
to leverage the initial private contributions in time to commence work 
on or around January 17, 2006, Dr. Franklin's birthday.
    Question 1e. How long will it take to complete the work?
    Answer. The project will take 4 years from planning until 
completion.
    Question 2. The enabling legislation that established The Franklin 
Institute contemplated a non-Federal funding source and did not include 
a provision for use of Federal funds. What has changed to cause a need 
for Federal funds and do you anticipate future requests?
    Answer. In 1972, when Congress designated this site as The Benjamin 
Franklin National Memorial, it was impossible to foresee the changes 
brought about that have made the Memorial a national destination with 
over 1 million visitors annually. Since the Memorial was built in 1938, 
nearly $20 million has been expended from The Franklin Institute's 
operating and capital budgets to preserve and maintain it. Visitorship 
takes its toll both in the wear and tear on the Memorial structure and 
in the added expense the Institute incurs in serving these visitors in 
a space that generates no admission revenue as agreed upon in the 1973 
Memorandum of Understanding between The Franklin Institute and the 
National Park Service.
    The Institute is now Pennsylvania's most-visited museum and the 
Memorial is the third most-visited tourist attraction in Philadelphia. 
My predecessors did not anticipate that by 2005, visitorship would more 
than triple and annual maintenance costs of the Memorial would exceed 
$300,000.
    Accordingly, once S. 652 is enacted and the authorized funding is 
appropriated, the Institute will actively match federal funding to 
upgrade the Memorial, ensuring that Franklin's legacy and remarkable 
story have a home fitting of his importance to our nation. Beyond this 
authorization and subsequent appropriations, the Institute will not 
seek further Federal support for the Benjamin Franklin National 
Memorial.
                                 ______
                                 
    Responses of Dr. Ralph Eshelman to Questions From Senator Thomas
    Question 1. What makes this trail unique and worthy of designation 
as a National Historic Trail?
    Answer. The proposed Star-Spangled Banner National Historic Trail 
would commemorate the events leading up to the writing of the poem 
``The Star-Spangled Banner'' during the War of 1812; events that are 
generally misunderstood by the general public. This sequence of events 
include the British invasion of Maryland, the Battle of Bladensburg, 
the burning of the White House and the Capitol, the burning of the 
Washington Navy Yard, and the Battle for Baltimore in the summer of 
1814. These events arc significant to the United States' national 
heritage. Not only was our national anthem derived from these events, 
but the flag that inspired the poem, has become America's foremost 
patriotic icon. I can think of no more significant trail that is worthy 
of inclusion in the National Trail System.
    The criteria for national trails, set forth in the National Trails 
Systems Act, have been applied, and five of the eight proposed trail 
segments meet all three criteria. National Historic Landmark criteria 
for national significance have also been applied and have been met by 
the proposed trail. The route of the invasion is clearly known and well 
documented--The proposed trail follows this route with only minor short 
deviations made necessary by limited highway access and railroad 
construction.
    Question 2. The trail will include separate trail segments 
highlighting six different sites associated with the war of 1812. Are 
separate segments the usual route National Historic Trails follow?
    Answer. While the proposed national trail contains five routes, the 
routes are physically connected by land and/or water. While we refer to 
these trail routes as segments, they actually are complete routes, each 
which tell one aspect within the full story of the Star-Spangled 
Banner. Those segments consist of the British invasion route from 
Benedict to Washington, the British feint up the Potomac River, the 
British feint up the Chesapeake Bay, the British route up the Patapsco 
River to Fort McHenry and the British land route from North Point to 
Baltimore. Together, these ``segments'' or routes serve to tell a 
single story--the story of how the Star-Spangled Banner came to be. 
Many national trails have multiple routes including the Oregon National 
Historic Trail, California National Historic Trail, Old Spanish 
National Historic Trail, Santa Fe National Historic Trail, Lewis and 
Clark National Historic Trail, Potomac Heritage National Historic 
Trail, and Florida National Historic Trail.
    This question implies that the Star-Spangled Banner Trail has only 
six sites. In fact, each segment consists of multiple sites (or 
resources as the National Park Service refers to them). The fewest 
number of sites for any one of the recommended segments consists of 8 
resources while the British land invasion route segment consists of 
forty-six resources. In total there are ninety-four identified 
resources among the five recommend trail segments.
    Question 3. Is it necessary for the Star-Spangled Banner Trail to 
have Federal designation or can it be managed as a state or regional 
entity?
    Answer. The Chesapeake Campaign of 1814 is nationally significant 
and represents key turning points in American social and political 
history. The events of the invasion contributed to the preservation of 
a young nation and its Constitution. Therefore, Federal designation is 
both desirable and appropriate. The trail would be managed in 
partnership with Maryland similar to many other National Historic 
Trails.
    Question 4. Will the creation of the Star-Spangled Banner Trail 
require the purchase of any lands?
    Answer. Creation of the trail does not envision any federal land 
acquisition. Thought doubtful, if any such land acquisition should be 
required in the future, it would only be from willing sellers.
                                 ______
                                 
                                                   August 19, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I truly appreciate your attentiveness when I 
appeared before your committee on July 28, 2005, and thank you most 
especially for thoughtfully making the effort to speak to me after the 
hearing.
    Your August 1st letter with further questions arrived Monday the 
15th of August. To expedite matters I am sending the response by FAX 
and will try to make my responses as complete as possible.
    Thank you, Senator Thomas, for requesting a clarification of my 
situation. I am truly appreciative of your interest in furthering the 
understanding of this unique situation--one which I am pursuing because 
I have felt the unfairness of it for so many years. As I stated at the 
July 28th hearing--I am only asking for what the National Park Service 
promised us in November 1979--nothing more.
            Sincerely,
                                             Betty H. Dick.
      Responses of Betty H. Dick to Questions From Senator Thomas
    Question 1. You provided a Park Service memo from 1979 that 
mentions a life estate. If you expected to get a life estate, why 
didn't you question things at that time and correct the paperwork?
    Answer. There are several reasons why we didn't pursue the life 
estate that had been promised by the National Park Service and attempt 
to correct the paperwork.
    A) Fred and his first wife, Marilyn had contested ownership of the 
Colorado property for two years, from 1975-1977. To settle the matter, 
Fred finally gave the tide to Marilyn with the explicit provision that 
if she sold the property, he would have the right of first refusal. 
Their divorce was finalized in June, 1977. In October 1977, the 
National Park Service, ignoring Fred's right, bought the property from 
Marilyn.
    B) Fred learned of the sale when it was subsequently published in 
our local weekly newspaper. He immediately began litigation against the 
NPS to recover his property through the right of first refusal clause. 
Another two years of legal wrangling and legal fees ensued--1977-1979.
    C) Fred and I were married in 1978. To reach a final settlement on 
the property, we met with NPS officials in Washington, DC in November 
1979. These men were attentive and sympathetic, realizing be had been 
by-passed and unfairly deprived of his right to the property. The 
settlement reached that day had three specific conditions. The NPS was 
to give each of us a life estate, and Fred was to give up 
2/3 of his land (44 acres) and pay a settlement fee of $7, 500.00.
    D) Throughout the winter of 1979-1980 we received three preliminary 
NPS papers which I presented at the July 28th hearing as Exhibits A, B, 
and C--all stating a life estate for both of us. Fred, believing the 
deal was sincere, returned to the Colorado property in early May of 
1980, and at his expense had it re-surveyed, took down the original 
fencing to re-fence his agreed upon 23 acres, and sent the $7,500.00 to 
the NPS.
    E) Fred was a graduate of the University of Illinois Law School. He 
was President of the Peoples Bank in Bloomington, Illinois. He had 
bought the Colorado property in 1961 and vastly improved it for his 
summers in retirement. He was a gentleman who honored his commitments. 
When the 25 year settlement paper arrived in early summer 1980, he was 
devastated. He realized the NPS had deceived him a second time. He 
could no longer enter into negotiations that were financially and 
emotionally draining with a Government entity he could no longer trust. 
He had nowhere to turn--he felt defeated . . . so he signed the 25 year 
agreement, to expire in July 16, 2005.
    F) For the record, neither Fred nor I have paid the NPS $300.00 a 
year as it is claiming, That figure comes from dividing $7,500 by 25 
years. The agreement for a life estate was made and the $7,500 was paid 
for the life estate, prior to any mention of 25 years. The NPS is also 
claiming this was a court ruling--it was not. It was a Settlement 
Agreement between Fred and the United States of America. (Exhibit D 
available at the July 28 hearing)
    Question 2. Is This your primary residence and how long do you 
occupy the home each year?
    Answer. Regarding my residence in Colorado. I return here every 
year mid-May and leave for Arizona mid-October. The altitude here is 
9,000 ft., so the weather determines the length of my stay. My primacy 
interests are here. My family considers this my main residence and 
enjoys visiting during the summer. I have become deeply involved in the 
Church community, the cultural community and educational aspects of the 
community. The Mayor and the Trustees of Grand Lake have voted to 
support my efforts to remain here, as have many friends and 
acquaintances of Grand County. The present Superintendent of Rocky 
Mountain National Park is sympathetic to my cause, and has granted me 
the right to stay here through the summer of 2005.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              


                UDALL BILL BEST PLAN FOR INHOLDING LEASE

                  [Rocky Mountain News--July 26, 2005]

    The Senate should go along with the House and approve a 
private bill that would give 83-year-old Betty Dick the right 
to stay on her 23 acres within Rocky Mountain National Park 
until she dies or leaves.
    A life estate in the inholding is what Dick and her late 
husband asked for and should have been given by the National 
Park Service originally. But instead the Park Service insisted 
on a 25-year agreement. It technically expired a week ago, 
although the local supervisor has granted her the right to stay 
through the summer.
    The bill sponsored by Rep. Mark Udall won unanimous 
approval in the House, but it may be in trouble in the Senate. 
Sen. Wayne Allard and others maintain it might set a legal 
precedent for 290 other disputed inholdings in 35 national 
parks.
    We don't think so. Dick is not on a lease like the others; 
what she has is a settlement agreement under which she paid 
$7,500 for 23 acres for 25 years. The Udall bill would extend 
the $300-a-year payment until she dies.
    The Park Service, which originally insisted there was no 
administrative remedy, recently decided that there was. It 
offered to let her stay if she surrendered all but five of her 
acres and paid $1,000 a month for them.
    She sensibly said no. She's hoping the Udall bill, which is 
scheduled for a hearing in the Senate's parks subcommittee 
Thursday, gets passed. So do we.
                              ----------                              

                                      Kalaupapa, HI, July 18, 2005.
Hon. Daniel K. Akaka,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.

Hon. Daniel K. Inouye,
U.S. Senate, Washington, DC.
    Dear Senators Akaka and Inouye: I am writing to you in support of 
S. 1166, a bill to extend the authorization of the Kalaupapa National 
Historical Park Advisory Commission. I appreciate your introduction of 
this measure on behalf of the patients of Kalaupapa.
    As you know, the Advisory Commission will expire on December 22, 
2005. I understand that S. 1166 would extend the Commission for an 
additional 20 years. The Advisory Commission plays an integral role for 
the patients to provide input to the National Park Service on 
visitation issues and other matters that may arise.
    The Advisory Commission meets approximately twice a year and we 
discuss issues are that critical to our community. Our decisions on 
levels of visitation are binding, after a referendum; we also discuss 
the following:

          Status of the National Park Advisory Commission
          Status of the Lease Agreement with Department of Hawaiian 
        Home Lands
          Status of Water System
          Status of Friends of Father Damien
          Archeology Work in Kalaupapa Settlement
          Fishing Laws
          Jurisdiction and Law Enforcement
          Electrical System Taken Over by National Park Service
          Vegetation Clearing
          Future of Airline Service to Kalaupapa Settlement
          Co-Habitation of Non-Married NPS Staff
          Influx of Volunteer Staff Without Time Limits
          Establishing An Onsite Memorial For Patients

    Also our concerns on status of Cooperative Agreements with the 
following agencies:

          State of Hawaii Department of Health
          State of Hawaii Department of Transportation
          State of Hawaii Board of Land & Natural Resources
          Catholic Church
          United Church of Christ

    We need to ensure that we have a voice for our community and that 
voice with the Park Service will continue. We look forward to dealing 
with some of the important transitional issues for Kalaupapa in the 
future, to ensure that the memory of previous patients continues to be 
honored.
    I have been informed that a Senate hearing on S. 1166 is scheduled 
for July 21st and I, along with the current members of the Commission, 
and the patients of Kalaupapa, hope that the bill will be passed by the 
Senate soon.

                                   Kuulei Bell
                                   Paul Harada
                                   Gloria Marks
                                   Shuichi Hamai
                                   Henry Nalaielua
                                   Clarence Kahilihiwa

                                    

      

</pre></body></html>
